<html>
<title> - TRIBAL SELF-GOVERNANCE</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
                        TRIBAL SELF-GOVERNANCE

=======================================================================

                           OVERSIGHT HEARING

                               before the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                       Wednesday, October 8, 2003

                               __________

                           Serial No. 108-66

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov


                                 ______

89-825              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
W.J. ``Billy'' Tauzin, Louisiana     Eni F.H. Faleomavaega, American 
Jim Saxton, New Jersey                   Samoa
Elton Gallegly, California           Neil Abercrombie, Hawaii
John J. Duncan, Jr., Tennessee       Solomon P. Ortiz, Texas
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Ken Calvert, California              Calvin M. Dooley, California
Scott McInnis, Colorado              Donna M. Christensen, Virgin 
Barbara Cubin, Wyoming                   Islands
George Radanovich, California        Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Jay Inslee, Washington
    Carolina                         Grace F. Napolitano, California
Chris Cannon, Utah                   Tom Udall, New Mexico
John E. Peterson, Pennsylvania       Mark Udall, Colorado
Jim Gibbons, Nevada,                 Anibal Acevedo-Vila, Puerto Rico
  Vice Chairman                      Brad Carson, Oklahoma
Mark E. Souder, Indiana              Raul M. Grijalva, Arizona
Greg Walden, Oregon                  Dennis A. Cardoza, California
Thomas G. Tancredo, Colorado         Madeleine Z. Bordallo, Guam
J.D. Hayworth, Arizona               George Miller, California
Tom Osborne, Nebraska                Edward J. Markey, Massachusetts
Jeff Flake, Arizona                  Ruben Hinojosa, Texas
Dennis R. Rehberg, Montana           Ciro D. Rodriguez, Texas
Rick Renzi, Arizona                  Joe Baca, California
Tom Cole, Oklahoma                   Betty McCollum, Minnesota
Stevan Pearce, New Mexico
Rob Bishop, Utah
Devin Nunes, California
Randy Neugebauer, Texas

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on Wednesday, October 8, 2003.......................     1

Statement of Members:
    Kildee, Hon. Dale, a Representative in Congress from the 
      State of Michigan..........................................     2
    Pombo, Hon. Richard W., a Representative in Congress from the 
      State of California........................................     1
        Prepared statement of....................................     2
    Rahall, Hon. Nick J., II, a Representative in Congress from 
      the State of West Virginia, Prepared statement of..........     3

Statement of Witnesses:
    Benjamin, Melanie, Chief Executive, Mille Lacs Band of 
      Ojibwe, Onamia, Minnesota..................................    13
        Prepared statement of....................................    15
    Marshall, Clifford Lyle, Chairman, Hoopa Valley Tribe, Hoopa, 
      California.................................................    20
        Prepared statement of....................................    23
    Matt, D. Fred, Chairman, Confederated Salish and Kootenai 
      Tribes, Pablo, Montana.....................................     4
        Prepared statement of....................................     7
    Moore, Jacob, Special Assistant, Congressional and 
      Legislative Affairs, Salt River Pima-Maricopa Indian 
      Community, Scottsdale, Arizona.............................    25
        Prepared statement of....................................    27


            OVERSIGHT HEARING ON ``TRIBAL SELF-GOVERNANCE''

                              ----------                              


                       Wednesday, October 8, 2003

                     U.S. House of Representatives

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Committee met, pursuant to notice, at 10:07 a.m., in 
Room 1324, Longworth House Office Building, Hon. Richard Pombo 
[Chairman of the Committee] presiding.
    Present: Representatives Pombo, Hayworth, Osborne, Rehberg, 
Renzi, Pearce, Bishop, Kildee, Pallone, Christensen, Inslee, 
Tom Udall, Rodriguez, Baca and McCollum.
    The Chairman. The Committee on Resources will come to 
order.
    The Committee is meeting today to hear testimony on the 
issue of tribal self-governance. Under Rule 4(g) of the 
Committee Rules, any oral opening statements at hearings are 
limited to the chairman and Ranking Minority Member. This will 
allow us to hear from our witnesses sooner and help members 
keep to their schedules. Therefore, if other members have 
statements, they can be included in the hearing record under 
unanimous consent.

 STATEMENT OF HON. RICHARD POMBO, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    The Chairman. President Nixon heralded the beginning of a 
new era in which Indian self-determination without termination 
would be the guiding Indian policy of the Federal Government. 
This policy was embodied in the ``Indian Self-Determination and 
Education Assistance Act,'' which is also known as Public Law 
93-638. Under this Act, tribes can opt to carry out by contract 
the services and programs the Federal Government provides to 
Native Americans.
    While a good start, a number of tribes observed problems in 
implementing the Act, such as cumbersome Federal regulations 
that prevented tribes from tailoring services and programs to 
suit the special needs of their members. Moreover, a 1987 
investigative series published in the Arizona Republic revealed 
gross waste, fraud and mismanagement in the Bureau of Indian 
Affairs.
    These factors gave rise to a series of actions and laws 
establishing tribal self-governance. Under self-governance 
arrangements, tribes effectively step into the shoes of the 
Federal Government and carry out the various Federal programs, 
services and functions in a manner that best works for tribes 
and their members. It enables participating tribes to serve 
their members according to their unique political, social, 
economic and cultural circumstances, with maximum efficiency 
and effectiveness.
    Tribes are the governments for their Indian members. Self-
governance thus represents what I believe is a Republican 
philosophical precept, holding that local government best 
represents and serves the people.
    The purpose of today's hearing is to hear from several 
tribes that have been involved in self-governance since it was 
formalized in the late 1980s. The Committee is interested in a 
status check on the self-governance experiment.
    How successful has it been in serving their members and 
managing their assets? Are there problems, and how can Congress 
address them on a government-to-government basis with the 
tribes? What does the future hold for self-governance?
    This is a fairly open-ended hearing, and I think our 
witnesses are eager to tell the story of their experiences.
    [The prepared statement of Chairman Pombo follows:]

        Statement of The Honorable Richard W. Pombo, Chairman, 
                         Committee on Resources

    President Nixon heralded the beginning of a new era in which Indian 
self-determination without termination would be the guiding Indian 
policy of the Federal Government. This policy was embodied in the 
``Indian Self-Determination and Education Assistance Act,'' which is 
also known by its Public Law 93-638. Under this Act, tribes can opt to 
carry out by contract the services and programs the Federal Government 
provides to Native Americans.
    While a good start, a number of tribes observed problems in 
implementing the Act, such as cumbersome Federal regulations that 
prevented tribes from tailoring services and programs to suit the 
special needs of their members. Moreover, a 1987 investigative series 
published in the Arizona Republic revealed gross waste, fraud and 
mismanagement in the Bureau of Indian Affairs.
    These factors gave rise to a series of actions and laws 
establishing Tribal Self-Governance. Under Self-Governance 
arrangements, tribes effectively step into the shoes of the Federal 
Government and carry out the various Federal programs, services and 
functions in a manner that best works for the tribes and their members.
    It enables participating tribes to serve their members according to 
their unique political, social, economic and cultural circumstances, 
with maximum efficiency and effectiveness.
    Tribes are the governments for their Indian members. Self-
Governance thus represents what I believe is a Republican philosophical 
precept holding that local government best represents and serves the 
people.
    The purpose of today's hearing is to hear from several tribes that 
have been involved in Self-Governance since it was formalized in the 
late 1980's. The Committee is interesting in a status check on the 
Self-Governance experiment.
    How successful has it been in serving their members and managing 
their assets? Are there problems, and how can Congress address them on 
a government-to-government basis with the tribes? What does the future 
hold for Self-Governance?
    This is a fairly open-ended hearing, and I think our witnesses are 
eager to tell the story of their experiences.
                                 ______
                                 
    The Chairman. I would now like to recognize Mr. Kildee for 
an opening statement.

  STATEMENT OF HON. DALE KILDEE, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MICHIGAN

    Mr. Kildee. Thank you, Mr. Chairman.
    First I would like to submit a statement on behalf of the 
Ranking Democrat, Mr. Rahall.
    The Chairman. Without objection.
    Mr. Kildee. Second, I will be very brief.
    I never leave home without two things. As a matter of fact, 
I was at the French Embassy one night and one of my Indian 
friends asked me--I always carry this Constitution, which does 
not grant you your sovereignty but recognizes your sovereignty, 
that the Congress shall have the power to regulate commerce 
with foreign nations and among the several States and with the 
Indian tribes. These are the three sovereignties recognized by 
the Constitution.
    I also carry John Marshall's very famous decision, Wooster 
versus Georgia, in which he says the Indian Nations have always 
been considered as distinct, independent, political 
communities, retaining their original, natural rights as the 
undisputed possessors of the soil from time immemorial. The 
very term ``Nations,'' as it would generally apply to them, 
means people distinct from others. He goes on to say we applied 
the words ``treaty'' and ``nation'' to Indians as we have 
applied them to the other nations of the Earth. They are 
applied to all in the same sense.
    Those are very important documents to show that the Indian 
tribes in this country have a retained sovereignty, a 
sovereignty that existed long before the European settlers came 
here. Congress' job in that government-to-government 
relationship is to protect and help you use all the 
accoutrements of sovereignty.
    I thank you for being here today, and I yield back, Mr. 
Chairman.
    [The prepared statement of Mr. Rahall follows:]

    Statement of The Honorable Nick J. Rahall II, Ranking Democrat, 
                         Committee on Resources

    Mr. Chairman. Self-governance is about empowerment--choice--
respecting sovereignty--and a true government-to-government 
relationship. At its most basic, self-governance is about power and 
control over one's homeland--something to which all humankind aspires.
    The Indian Self-Determination and Education Assistance Act was 
first enacted just before I came to Congress, so I have had a bird's 
eye view of its implementation and have been actively involved in its 
evolution. My basic observation of the history of the Act is that each 
step of the way we have been faced with nervous Federal employees and 
patient Indian tribes.
    In the early days Indian tribes came forward to enter into what is 
known as ``638 contracts,'' which provided them with the ability to 
administer Federal programs to their members. Though a very good 
concept, we quickly learned that the rules set up by the BIA were often 
over-restrictive, and the paperwork cumbersome.
    It was not long before Indian country was proposed for a program to 
permit a tribe to enter into annual funding agreements which would 
include resources for the management of multiple programs and the 
flexibility to address priorities as they arose.
    Congress has amended the original Act a number of times bringing us 
to the current self-governance authority that exists for Department of 
the Interior and Department of Health and Human Services programs.
    To paraphrase the long-time former Chairman of this Committee, Mo 
Udall, who used to say about America in general, I say--Indian self-
governance may not be perfect but we are not finished with it yet.
    In TEA-21, I, along with the gentleman from Alaska Don Young, 
authored self-governance-type language introducing the concept of 
direct funding to Indian tribes through the Department of 
Transportation and was immediately hit with resistance from reluctant 
Federal bureaucrats fearful of dealing with Indian tribes on a 
government-to-government basis.
    But what they do not understand is that we will not give up, as we 
have heard all the nervous ``buts'' before.
    Everyone in this room has heard:
    <bullet> LBut there are too many tribes to deal with;
    <bullet> LBut the tribes will not know how to handle the money;
    <bullet> LBut the tribes will not know how to manage the programs 
correctly;
    <bullet> LBut our agency regulations are not set up to deal with 
individual Indian tribes;
    and, maybe my all-time favorite misconception
    <bullet> LBut the Federal trust responsibility only lies with the 
BIA and IHS.
    I reject these misconceptions and the success of the self-
governance tribes proves them wrong every single day. I hear over and 
over again how Indian tribes who have taken over programs either 
through ``638 contracts'' or self-governance compacts are providing 
better services to their members with less money than was spent under 
Federal administration.
    I believe the overall success of this program is due to the fact 
that it was initiated by Indian country and has been negotiated on a 
government-to-government basis throughout.
    Certainly, we need to provide more funding for the compacts and, 
yes, we need to work on making regulations consistent. But as I just 
said, we are not finished yet.
    To those who question the future of the Federal trust 
responsibility, Congress has made its intent clear that self-governance 
does not diminish this responsibility. Generations of treaties, laws, 
court cases and Executive Orders has framed the trust responsibility 
which the right to self-govern does not erase.
    I look forward to our working together as we continue down this 
road of Indian self-governance. And to those tribes who choose not to 
participate in these programs, I will continue to work to ensure your 
choice leads to better quality of direct services provided by Federal 
agencies.
                                 ______
                                 
    The Chairman. Thank you.
    I would like to welcome our first panel: D. Fred Matt, 
Melanie Benjamin, Clifford Lyle Marshall, and Jacob Moore. To 
introduce our first witness, I would yield to Mr. Rehberg.
    Mr. Rehberg. Thank you, Mr. Chairman, and thank you for 
having this hearing. I think it is important to draw attention 
to many of the things that are going so very positively with 
the Native Americans throughout America. This gives us an 
opportunity to showcase and highlight one of our tribes in 
Montana, one I am particularly proud of.
    We hear a lot about Native Americans' entrance into the 
gaming industry and that is essentially their commerce, their 
vision for their families' future and their communities' 
future. But we have a tribe in Montana that hasn't made it 
through gaming but has one of the foremost technology companies 
in the Nation, in the world. In fact, they have parts in the 
tanks that are in Iraq and Afghanistan and other places. They 
develop it, they manufacture it, and they are a tremendous 
hiring opportunity for their tribe. As well as industries, they 
have S&K Technologies. They have a natural resource management 
second to none. I have a commitment from the leadership in the 
House to look at opportunities to look at pilot programs to 
allow them to go in and clean up dead and dying trees in the 
forest. They are the ones that can, in fact, do that.
    So I am really proud to have Fred Matt here to talk a 
little bit about the things that are going on very positively 
with his tribe up in the State of Montana. I thank you for 
allowing me to point that out, to draw attention to him, and 
welcome, Fred.
    The Chairman. You may begin.

 STATEMENT OF D. FRED MATT, CHAIRMAN, CONFEDERATED SALISH AND 
 KOOTENAI TRIBES; ACCOMPANIED BY ANNA WHITING SORRELL, COUNSEL

    Mr. Matt. Thank you for that kind introduction.
    I want to start off by saying I hope you will bear with me 
because I am going to read my statement. Those who helped me 
prepare this know that I have a tendency to ramble, and when I 
ramble, I don't think you want to hear me ramble because, for 
one, your time is too valuable. So I want to make sure I stick 
to all the points and identify those things that we are doing 
right on our reservation.
    So, with that, Chairman Pombo, Ranking Member Rahall, and 
honored members of the House Resources Committee, I am Fred 
Matt, the Chairman of the Salish and Kootenai Tribal Council. 
As Denny mentioned, I have traveled from the beautiful Flathead 
Reservation where we have just recovered from an unprecedented 
hot summer season and we are in the process of a drought right 
now.
    While we did not experience any major fires on our 
reservation, our council was forced to take some drastic 
measures throughout the summer to protect our natural 
resources. We literally had fires all around us in Glacier Park 
and in the Bitterroot Valley. Let me tell you, it's really a 
welcoming season right now in the fall, to where our fire 
season is winding down.
    I am honored to provide this testimony on tribal self-
governance as our tribes are proud of our successes in managing 
the programs of the Federal Government. Our success began with 
the self-determination law when it was passed. After President 
Nixon proposed this policy, we were one of the first tribes in 
this country to exercise the opportunities provided in Public 
Law 93-638. Since 1975, when we began the management of the BIA 
Education Programs, we haven't looked back. Today, I am proud 
to report that the tribes I represent manage under self-
determination more Federal programs than any other tribe in 
this Nation. We do so with excellent evaluations, clear 
financial audits, and with few, if any, complaints.
    Just last week we began the 11th year of operating a full 
health care delivery system for the Indian Health Service for 
nearly 10,000 users. This includes dental services, pharmacy 
services, and public health nursing. We have developed 
contracts with doctors, specialists and hospitals throughout 
western Montana. With extremely limited funds, less dollars 
than are received by the Federal Prison System on a per capita 
basis, the services to the prisons, we have designed a system 
to meet our unique needs.
    We manage the same range of programs provided at any BIA 
agency, except the programs that are under the direction of the 
Tribal Council. This includes all the educational programs, 
social service programs, law enforcement, tribal courts and, 
since 1989, we have operated a Safety of Dams program 
responsible for the rehabilitation of 17 dams located on our 
reservation.
    We have been extremely successful. We have repaired dams 
quicker and cheaper than the Bureau of Reclamation. For 
example, one of the first dams was the Black Lake Dam, which 
was completed with a savings of $1.3 million.
    My personal favorite success story in self-determination 
contracting is the Mission Valley Power. We manage a power 
utility that provides electricity to nearly 22,00 Indian and 
non-Indian customers on our reservation. Today, I am proud to 
report that Mission Valley Power offers some of the lowest cost 
and most stable electric rates throughout the Northwest.
    We have an independent utility board and active consumer 
council. Our conservation program has won several awards, and 
our safety record is outstanding. In addition, the Confederated 
Salish and Kootenai Tribes set a goal to create a number of 
employment opportunities for our tribal members as electrical 
linemen. This goal was accomplished with the graduation of ten 
tribal member linemen who are employed in this industry, and we 
have five apprentices currently.
    In the area of trust reform in the Department of Interior, 
the Confederated Salish and Kootenai Tribes' efforts in trust 
reform began when we entered into the first self-determination 
contract, and it continues with self-governance in our self-
governance compact. Early on, we recognized the need to improve 
trust services. We didn't wait for a judge to tell us what we 
needed to do, but recognized that we were the ones best suited 
to take on the task.
    We got busy developing a model program. It includes the 
management of trust resources, such as land leasing, homesites, 
businesses, business leases, forest management, agriculture, 
and grazing permits. In addition to these services from the BIA 
agency, we have assumed the management of the IIM accounts from 
the Office of Special Trustee and we operate a land titles 
records office from the Northwest Regional Office in Portland.
    Through the opportunity provided to the tribal self-
governance that allows for redesign and reallocation of funds, 
we have developed a trust resource system with local control 
and where decisions are made by those impacted. In our tribally 
designated system, we manage the trust resources programs that 
generate revenue, the IIM accounts we receive and the revenue, 
and then we record the documents. It works and we're proud of 
it.
    While we are proud of our programs, we recognize that the 
cornerstone to any tribal economic development is a strong 
tribal government. Tribal self-governance has done that for 
CSKT, as we know we have a number of highly successful tribal 
enterprises that Denny has alluded to. S&K Technologies is one 
of the five largest 8(a) Federal Indian contractors.
    As I conclude, I want to tell this Committee of our next 
step in tribal self-governance. We are in the midst of 
negotiating an Annual Funding Agreement with the U.S. Fish and 
Wildlife Service for the management of the National Bison Range 
Complex. Our efforts to assume management of this complex began 
in 1994 when Congress authorized the management of DOI programs 
to tribes that have a significant historic, geographic, or 
cultural tie. We have all three with the Bison Range. The Range 
is located in the heart of our reservation, entirely on land 
reserved for us under the Hellgate Treaty of 1855. The bison at 
the Range are descendent from a herd raised from two tribal 
members, Charles Allard and Michael Pablo.
    Finally, a study conducted by the Service documents the 
number of cultural sites on the refuge. After nearly a decade, 
we are close to reaching an agreement. After a 90-day public 
comment period, the signed agreement will be sent to this 
Committee. We look forward to working with you during that 
period.
    Finally, I ask for your continued support in our efforts of 
tribal self-governance. The DOI is moving forward to fulfill 
the court's orders, but do not allow them to do that in a 
manner that will harm our ability to manage programs through 
self-governance. Their current reorganization plan has the 
potential of negatively impacting our tribes by centralizing 
the decisionmaking in Washington, D.C., and at the regional 
office. It could strip the advances we have made over two 
decades.
    Our experience shows that our tribes, when given the 
opportunity, we can meet or exceed any Federal expectation. As 
you know, we have secured language in the Senate Interior 
Appropriations bill authorizing a 1-year demonstration project 
that will allow us to continue operating our trust programs.
    Chairman Pombo, thank you for your letter of support in 
this project. We urge your continued support as we deal with it 
in this Committee. Thank you again for this opportunity.
    [The prepared statement of Mr. Matt follows:]

    Statement of D. Fred Matt, Chairman, The Tribal Council of the 
     Confederated Salish and Kootenai Tribes, The Flathead Indian 
                              Reservation

    Chairman Pombo, Ranking Member Rahall and honored Members of the 
House Resources Committee, my name is Fred Matt, and I am Chairman of 
the Confederated Salish and Kootenai Tribes (CSKT) of the Flathead 
Nation. On behalf of my Tribal Council, I am pleased to provide 
testimony regarding our Tribes' experience exercising the opportunities 
afforded them by P.L. 93-638, the Indian Self-Determination and 
Education Assistance Act of 1975, as amended. This oversight hearing on 
``Tribal Self-Governance'' is quite timely and I appreciate this 
opportunity to share our Tribes' experience.
    When the authorizing legislation was enacted in 1975, a new era in 
Federal Indian Policy was affirmed that significantly changed the 
relationship between the United States of America and the governments 
of the Tribal Nations across this great Country. In Section 3, the 
Declaration of Policy contained in P.L. 93-638 it states:
        ``The Congress declares its commitment to the maintenance of 
        the Federal Government's unique and continuing relationship 
        with, and responsibility to, individual Indian tribes and to 
        the Indian people as a whole through the establishment of a 
        meaningful Indian self-determination policy which will permit 
        an orderly transition from the Federal domination of programs 
        for, and services to, Indians to effective and meaningful 
        participation by the Indian people in the planning, conduct, 
        and administration of those programs and services. In 
        accordance with this policy, the United States is committed to 
        supporting and assisting Indian tribes in the development of 
        strong and stable tribal governments, capable of administrating 
        quality programs and developing the economies of their 
        respective communities.''
    CSKT is proud to report to the House Committee on Resources that 
the aforementioned policy is a success and our Tribes are a shining 
example of that success. The Indian Self-Determination Policy was 
conceived of during the tenure of the Nixon Administration; even though 
it did not become law until after the President left office. It was 
without question his greatest legacy in the views of tribal 
governments. It is a policy that has been supported and reiterated on a 
bipartisan basis by every White House and Congress since it was 
proposed over 25 years ago. It was the beginning of the end of the 
paternalism and the ``Washington-knows-best'' procedures that had been 
so detrimental to tribal governments and it signaled the beginning of a 
policy that is Indian country's version of the ``best government is 
that which is closest to the people.''
    CSKT immediately seized the opportunity provided in the legislation 
and began planning to manage the Bureau of Indian Affairs (BIA) 
Education Programs, including scholarships, the Employment Assistance 
and the Johnson O'Malley Program; and by the end of 1975, we had 
assumed management and operation of these education programs. Shortly 
thereafter we added BIA Law Enforcement and Tribal Court to CSKT 
management. Since those initial agreements were effectuated, our Tribes 
haven't looked back. After a year-long Tribal study in 1979 on the 
services provided by the BIA Social Services Program that included 
foster care and child protective services, CSKT assumed its management. 
From that time forward, we contracted to perform many other BIA 
Programs, or portions thereof, including Forestry functions such as 
Forest Development and Dwarf Mistletoe Control and Natural Resource 
Management such as Wildlife and Land Management programs.
    One of the BIA Programs we assumed in 1989 was the Safety of Dams 
(SOD) Program, to eliminate or ameliorate the SOD concerns at 17 
locations on the Flathead Reservation as identified by the Department 
of Interior National Dams--Technical Priority Rating listing. Our SOD 
Program provides investigations, designs and SOD modifications to 
resolve the concerns of the dams on the list. The Tribes' SOD Program 
has been extremely successful. Dams have been modified and at a cost 
significantly lower than originally estimated by the BOR. For example, 
the Black Lake Dam was completed in November 1992 at a savings of 
approximately $1.3 million. The Pablo Dam SOD Modification Project was 
completed in February 1994 at a savings of nearly $140,000. The first 
phase of the McDonald Dam SOD Program has been a ``model'' Program, 
which has been used by other tribes across this nation. The CSKT SOD 
Program continues to succeed after nearly 15 years of Tribal 
Management.
    The CSKT management of Mission Valley Power (MVP) is another early 
success story for CSKT in P.L. 93-638 contracting within the Department 
of the Interior (DOI). In the 1980s, the CSKT notified the DOI of our 
intent to contract for the Power Project within the Flathead Agency 
Irrigation Division. The Power Project provides electrical services to 
the Flathead Reservation Area that includes Indians and non-Indians. 
After heated debates and even attempted congressional intervention, 
then-Assistant Secretary for Indian Affairs Ross Swimmer signed the 
P.L. 93-638 contract transferring the management and operation of the 
Power Project to the CSKT and our management continues today. We are 
proud to report that MVP offers some of the lowest cost and most stable 
electric rates throughout the Northwest. We have an independent Utility 
Board and an active Consumer Council as integral parts of our 
management of the utility. Our Utility Conservation Program has won 
several awards and our safety record is deemed outstanding. In 
addition, the CSKT set a goal to create a number of employment and 
training opportunities for our Tribal members as electrical lineman. 
This goal was accomplished as to date there have been ten (10) Tribal-
member lineman graduates who are fully employed in this technical 
industry and five more apprentice linemen are in training.
    Our P.L. 93-638 contracting efforts extended to the U.S. Department 
of Health and Human Services (DHHS) when in 1977 CSKT formed the Tribal 
Health Department to perform an array of Indian Health Service programs 
such as Community Health Nursing and the Community Health 
Representative Program. Over the years, the CSKT assumed management of 
the Mental Health Program, the Medical Social Work Program, the Health 
Education Program, and the Alcohol and Substance Abuse Program.
    Our efforts with Self-Determination continued through 1987 when 
Congressman Sidney Yates conducted an oversight hearing of the Interior 
and Related Agencies Appropriations Subcommittee after a series of 
articles appeared in the Arizona Republic newspaper. Our late Tribal 
Chairman Michael T. Pablo attended that hearing and when asked he 
responded that tribes should be given increased responsibility in 
managing and operating Federal programs. The BIA responded in December 
1987 with the submission of a list of ten tribes, including CSKT for 
consideration of a demonstration project. The identified 10 Tribes 
proposed to Congressman Yates a planning phase and this initial phase 
was funded in Fiscal Year 1988. On September 15, 1988, P.L. 100-472 
Title III of the Indian Self-Determination Act Amendments of 1988 was 
enacted and Tribal Self-Governance under P.L. 93-638 were born. We have 
been an active participant from the start.
    As one of the initial Tribes identified in the Self-Governance 
Demonstration Project, our Tribes' approach through the planning 
process has been to work toward the program agreement, such as a 
compact, with a phased and careful approach that would affirm the 
establishment of a new government-to-government relationship with the 
United States. We are committed to instituting and implementing 
policies to strengthen our capacity as a Tribal government in order to 
achieve the maximum degree of self-governance possible within the 
Federal system of the United States. The following principles apply:
    1) Affirmation of a government-to-government relationship between 
our Tribes and the United States is not simply a funding relationship 
and not just with the BIA;
    2) The role of CSKT Tribal government and the Federal Government 
will evolve over time but must reflect the Hellgate Treaty of 1855 and 
all other agreements between CSKT and the United States;
    3) The Trust Responsibility requirement that the United States 
must protect the trust resources of the Tribes to the highest degree of 
fiduciary responsibility is not reduced by Tribal participation in 
Tribal Self-Governance; and
    4) In our efforts in Tribal Self-Governance, CSKT will perform 
functions of determining the resources, exchange of information and 
achieve the highest level of accountability as determined by the CSKT 
Tribal Council.
    These principles formed the foundation as we moved forward from 
P.L. 93-638 Self-Determination contracting to Tribal Self-Governance 
compacting in October 1993 when the CSKT entered into Tribal Self-
Governance compacts and Annual Funding Agreements (AFA) with the DOI 
and the DHHS.
    In September 1992 the Tribal Council, at the request of the Tribal 
Health Department Head, the Tribal Human Services Department Head and 
the IHS Flathead Service Unit Director, directed the completion of a 
Tribal study to consolidate the services of the three entities. The 
study commenced in October 1992 with staff interviews and data 
evaluation. As the Tribal Council analyzed the information gathered in 
the study, the Congress extended the P.L.93-638 Title III Tribal Self-
Governance opportunities to DHHS--IHS. The Tribal Council notified the 
IHS that we intended to negotiate a compact and an AFA for all of the 
services provided at the Flathead Service Unit, including the Pharmacy 
Program, the Dental Program and all administrative functions. In 
addition, since the majority of the health care was provided through 
the Contract Health Services Programs (CHS), including the payment of 
health care claims, CSKT intended to assume the management of the CHS 
Program and the services provided to IHS by the Fiscal Intermediary. 
Agreements were reached and at the beginning of Fiscal Year 1994, 
(October 1, 1993), the CSKT began the operation and management of a 
consolidated health care delivery system known as the Tribal Health and 
Human Services Department that is responsible for the health care 
services of nearly 10,000 eligible IHS beneficiaries.
    As we start our 11th year of operation under this AFA, we recognize 
that our current system is ``At-Risk'' as it is tremendously 
underfunded and health care costs continue to rise as do the number of 
eligible beneficiaries. Both aspects of operating this program are 
beyond our control. In 1991, the CSKT, the IHS and the Congress engaged 
in lengthy and oftentimes difficult discussions regarding our funding 
crisis. With the assistance from the IHS and the Montana Congressional 
delegation, the CSKT were able to avert the reassumption of the health 
system by the IHS with the implementation of a Business Plan for Health 
Care Delivery. However, our System remains at risk even though we limit 
services according to the approved Business Plan. The funds we receive 
from IHS are seriously inadequate. A study by the U.S. Commission on 
Civil Rights in July 2003 documented that the an individual Medicare 
beneficiary health care cost $5,915, a Veteran's medical benefit cost 
$5,214 and a Federal prisoner's medical care cost $3,879 while an 
individual IHS beneficiary received only $1,914. In CSKT's analysis as 
a CHS dependent health care unit, we receive even less than the average 
IHS beneficiary with the individual beneficiary utilizing our System 
costing less than $1,188 per user. As we celebrate 10 years of Tribal 
health care management, we are proud that we have been able to provide 
quality care to users with significantly less funds than Medicaid /
Medicare and even the Federal Prison System. However, we urge this 
Committee to seek additional funds for IHS to bring parity to Native 
Americans, as it is well-documented that our health needs for diabetes, 
substance abuse, cancer, heart disease far exceeds the national 
average.
    With the Tribal Council's decision to negotiate a Tribal Self-
Governance compact and AFA for health care services, they decided it 
was also time to move our relationship with DOI to Tribal Self-
Governance. In April 1993 the Tribal Council notified the BIA Northwest 
Regional Office of our intent to negotiate a Tribal Self-Governance 
compact and AFA for all the P.L. 93-638 contracted programs, services, 
functions and activities. The transfer from contracting to compacting 
in DOI was completed and at the beginning of Fiscal Year 1994 (October 
1, 1993), the CSKT began operating and managing the BIA according to 
the new agreements.
    It was clear to the Tribal Council that the opportunities provided 
in Tribal Self-Governance complemented our authority as a sovereign 
government. It was recognized that certain governmental functions must 
be provided by the Tribes and that we must assume responsibility and be 
held accountable for the delivery of these governmental functions. P.L. 
93-638 provided the vehicle to promote our Tribes' self-governance and 
would assist in the building of Tribal government infrastructure and 
promote economic self-sufficiency. The late Michael T. Pablo, CSKT 
Tribal Chairman, articulated this vision clearly as he became a 
national advocate for our efforts and other Tribes' efforts for Self-
Governance.
    To fulfill this vision, the CSKT immediately notified the BIA of 
our intent to negotiate an Agreement to transfer the management of the 
BIA Roads Maintenance and Construction Program to the Tribes. This 
agreement was complete in early 1994, and the CSKT began laying asphalt 
soon thereafter. We are proud to report that we have laid many miles of 
roads since we began in 1994 and continue to actively plan, design and 
construct roads throughout our 1.25 million acre Reservation.
    All Forestry Program functions were added to the CSKT Tribal Self-
Governance Agreement in Fiscal Year 1996 after a year-long Tribal study 
to assume the management of these services. The CSKT also at this time 
transferred fire pre-suppression activities and agreed to continue 
managing fire suppression activities through other agreements. In 
Fiscal Year 1997 the CSKT intended to assume all of the remaining 
functions provided at the BIA--Flathead Agency including Individual 
Indian Monies Program (IIM) and other administrative functions and the 
Northwest Regional Office Title Plant functions. However, the final 
Fiscal Year 1997 agreement only included the certain additional 
administrative functions. The CSKT decided to leave the BIA Agency 
Superintendent in place to facilitate the delivery of the inherent 
Federal functions. It was determined that a local Federal official, 
with sufficient delegated signatory authority, would improve the 
delivery of the services under Tribal management. The arrangement 
remains in place today. Our efforts to assume the Title Plant, also 
known as the Land Title and Records Office, were completed mid year in 
1997.
    Our efforts to assume management of the IIM Program proved to be 
much more difficult. At the same time we began seeking to manage this 
Program, a class-action lawsuit (the so-called Cobell case) was filed 
in Federal court seeking remedy for account holders resulting for years 
of mismanagement of the accounts by the DOI. A number of issues 
developed in our efforts to assume management of this Program. The 
first is the result of the transfer of the IIM Program from the BIA to 
the Office of the Special Trustee--Office of Trust Funds Management 
(OTFM). Since the Program no longer resided in the BIA, Tribal 
assumption would be under a different set of Federal regulations than 
those regulations for all other non-BIA programs in the DOI. The non-
BIA regulations are more restrictive and cumbersome. Although the CSKT 
were eventually able to assume management of the IIM Program in 1997, 
it was an agreement with significantly reduced authority for the CSKT 
to redesign to improve the Program. We are proud to report that the 
CSKT continues to operate the IIM Program. In the annual audit and 
evaluation conducted for OTFM by external evaluators, we have received 
excellent reviews. The Federally run programs have just recently begun 
such reviews.
    With the assumption of the IIM Program, the Regional Office Land 
Record and Title Office and all other BIA Programs with the exception 
of the Federal signatory authority and the Flathead Indian Irrigation 
Project, the CSKT became the first Tribe in the Country to bring under 
Tribal Management the full range of DOI services. In 2003, no other 
Tribe exercises the authorities provided in P.L. 93-638 to the same 
extent as the CSKT. We are quite proud of our efforts in this area and 
for our efforts within the larger DOI.
    Our efforts in Tribal Self-Governance have transcended to other 
areas, especially as the Congress has extended similar authority for 
other Federal Government programs. For example in 1998, the CSKT became 
the first Tribe in Montana to administer the Temporary Assistance for 
Needy Families (TANF) program through an agreement with the State of 
Montana and the Department of Health and Human Services. The Tribal 
Council adopted a revised organizational structure for service delivery 
to ensure all the Tribal programs, based on income that a family 
requires to achieve economic self-sufficiency are consolidated in one 
Tribal department, known as the Department of Human Resources 
Development (DHRD). This was a major move as most other Tribal TANF 
Programs were generally added to the existing General Assistance 
Program. Within a year of administering TANF, our Tribes moved quickly 
to consolidate several funding sources including TANF into a Public Law 
102-477 Plan, as approved and administered by the BIA. The benefits of 
this move were tremendous including fewer administrative reports, more 
time for intense client services, and less administrative overhead. 
This law and the opportunity to consolidate services for the benefit of 
the clients is true self-determination where Tribes can design services 
unique to each Tribe and their needs. The success of this model has 
resulted in increased employment opportunities for our Tribal members 
that were not previously available
    When the Congress originally enacted the Indian Self-Determination 
and Educational Assistance Act in 1975, one of the stated purposes was 
to increase Tribal economic self-sufficiency by authorizing Tribes to 
manage Federal programs. Nearly three decades later, the CSKT has 
proved this to be true. Today, the CSKT is the largest employer in 
northwest Montana. We employ over 1,000 individuals in a variety of 
capacities from lawyers, doctors, dentist, engineers, scientists and 
teachers. Our goal is to employ qualified individuals to ensure the 
highest quality of service is provided. We manage multiple budgets, 
from a variety of Federal, state and private sources that exceed $180 
million per year.
    The opportunities provided under this Act provided the CSKT with 
the ability to build a strong governmental infrastructure needed to 
move into other areas. Our Indian Reorganization Act (IRA) Section 17 
corporate structure has indirectly benefitted from our success in 
Tribal Self-Governance. S&K Electronic is rated in the top 10% of 
employers in the State of Montana. S&K Technologies has received nearly 
half-a-billion dollars in contracts and has satellite offices 
throughout the nation in states such as Georgia, Texas, Ohio and 
Washington. Our S&K Development manages a great resort located on the 
shores on beautiful Flathead Lake. With just these few examples and 
there are more, it is clear the Federal policy of Indian Self-
Determination is a success and must continue or expand in the future.
    The logical next step for the CSKT is to contract for operations at 
the National Bison Range Complex (NBRC). The Indian Self-Determination 
and Education Assistance Act's Title IV program--the Tribal Self-
Governance Act of 1994--authorized Tribes to enter into agreements for 
non-BIA programs administered by the Secretary of the Interior, which 
are of special geographic, historical or cultural significance to the 
requesting Tribe. We notified the DOI of our intent to enter into an 
agreement to assume management of the NBRC in December 1994 and to this 
day we continue to seek its management. The NBRC is located entirely on 
our Reservation, on land reserved in the Hellgate Treaty of 1855. The 
Tribes, as a result of that treaty, ceded over 20 million acres of what 
is now western Montana and reserved for ourselves and future 
generations the 1.25 million acre Flathead Indian Reservation along 
with the agreement that our lands and the rights described in the 
treaty would be protected forever. The agreement was breached when 
Congress, without Tribal approval, removed nearly 18,500 acres in the 
heart of our reservation in 1908, created the NBRC and transferred the 
land to the U.S. Fish and Wildlife Service (FWS). Although the Tribes 
received a minimal payment of $1.56 cents an acre and then another 
settlement later, we never consented to sell the land. The land on 
which the Ninepipe and Pablo Refuges (ancillary FWS properties 
associated with the NBRC) are located is Tribally owned with the DOI 
holding an irrigation easement and the FWS holding a secondary easement 
of refuge purposes. The bison that reside on the NBRC are descended 
from a herd originally raised by tribal members Charles Allard and 
Michel Pablo. And finally, in a study commissioned by the FWS a number 
of cultural sites are located on the NBRC. Clearly, the concept the 
Congress set forth in the law is met and exceeded as the three criteria 
of historic, cultural and geographic connections are all fulfilled by 
our relationship with the National Bison Range Complex.
    The CSKT again notified the DOI of our intent to enter into an 
agreement to manage the NBRC on February 26, 2003, according to 
regulations published in the Federal register to guide this negotiation 
process. In a press statement released jointly by the CSKT and the FWS 
following negotiations in September 2003, both sides stated that 
significant progress is being made toward the development of an 
agreement. We look forward to joining in partnership with the FWS to 
submit a signed agreement for this Committee's 90-day review. We are 
sure this Committee will agree that, with our history of conservation 
and our professional capacity as managers, assuming certain duties at 
the NBRC is a sensible next step.
    As we conclude our testimony we express concern that the proposed 
DOI reorganization may well have a negative effect on Tribal Self-
Governance. CSKT is particularly concerned about the proposed 
reorganization in specific areas as follows:
        Impact on Self-Governance and Self-Determination--It is our 
        experience that when programs, services, functions or 
        activities move from the BIA to another part of the DOI 
        structure there is a negative impact on tribal opportunities to 
        manage and operate them under P.L. 93-638. Such programs are 
        deemed to be ``non-BIA programs.'' As stated earlier in this 
        testimony, there are different regulations for BIA-operated 
        programs and all other non-BIA programs within DOI. The 
        regulations governing tribal assumption of non-BIA programs 
        fail to meet the intent or spirit of tribal self-determination 
        by including what we believe are unnecessary governmental 
        restrictions and retained Federal control. The most glaring 
        example of DOI resistance to tribal assumption of DOI programs 
        outside the BIA can simply be found in the few number of self-
        governance agreements in existence after nearly a decade since 
        1994, when the Self-Governance amendments were enacted. Those 
        that have been enacted are unnecessarily narrow in scope.
    We also point to the resistance we faced from the Department during 
the previous Administration when we endeavored to assume the management 
of the IIM Program.
    It is CSKT's utmost concern during this time of trust reform that 
Tribes do not lose the opportunity to manage and operate the trust 
resources programs. We have done an excellent job operating the trust 
programs and have audits and evaluations to prove it. We should not be 
punished for DOI's mismanagement over the past century.
    1) Funding for the Trust Programs and Funding for BIA--The BIA is 
extremely underfunded. For example, the Intertribal Timber Council 
reports that BIA receives one-tenth the amount of funding that the U.S. 
Forest Service receives to manage Federal land. It is unreasonable to 
think that the BIA can manage tribal resources with such substantially 
fewer dollars on a per-acre basis. BIA programs must receive full 
funding that is equivalent to funding received by other Federal 
agencies to provide similar functions.

       Another concern is where the funding will come from for the 
multiple layers of oversight DOI is proposing and how the oversight 
will apply to Tribal Self-Governance Agreements.
    2) Guarantee No Diminishment of the Trust Responsibility--In our 
efforts in Tribal Self-Governance there has not been a reduction in the 
Federal trust responsibility to our Tribes.
    3) Signature Authority at the Local Level--For Tribes to operate 
efficiently, the provision of Federal functions should be at the local 
level--not centralized in Washington, D.C., or some other centralized 
location. As we said earlier, tribal government is the most effective 
when the decisions are made locally and not by a Federal bureaucrat.
    4) Information Technology and Security--As a result of the 
computer shutdown in the DOI due to security breaches, it is clear that 
major changes are imminent and needed with the BIA information 
technology systems, including appropriate security safeguards. Tribes 
that operate the trust programs and require access to BIA IT systems 
must be considered in its development and must receive the same level 
of funding that the BIA receives.
    5) Increased Reporting--As DOI attempts to meet the requirements 
set forth by Judge Lamberth in the Cobell litigation, there is a 
perceived need for increased reporting. Although the CSKT is willing to 
account for our activities, it must be done in logical manner not at 
``the spur of the moment,'' which often creates busy work and without 
proper justification to the purpose for the reason the data in needed.
    Although we fully understand and support the need for TRUST REFORM, 
Tribal Self-Governance is a reform model that is tried and tested and 
has been deemed to be quite successful. Our efforts were motivated by 
the need to improve the services provided by the BIA and IHS. For over 
10 years, we have documented success. To secure the opportunities the 
Congress has provided Tribes through Tribal Self-Governance; the CSKT 
has joined with other Tribes and are seeking the establishment of 
demonstration project to showcase alternatives to some aspects of newly 
proposed trust procedures and processes through Fiscal Year 2004 
Interior Appropriations. The Senate Interior Appropriations bill 
includes this language in Section 134. After discussions last week, it 
appears the Tribes and DOI are close to an agreement. We want to thank 
Chairman Pombo for his recent letter of support to Chairman Taylor of 
the Interior Appropriations Subcommittee on this demonstration project. 
We urge the Committee's continued support for it.
    I am proud to be a member of the Confederated Salish and Kootenai 
Tribes. Our Tribes have much to be proud of and I hope we can count the 
Congress's continued support of our efforts.
    Thank you for the opportunity to provide this testimony.
                                 ______
                                 
    The Chairman. Thank you.
    To introduce our next witness, I would recognize Ms. 
McCollum.
    Ms. McCollum. Thank you, Mr. Chairman.
    It is an honor for me to welcome here today a tribal leader 
and a friend from Minnesota, Melanie Benjamin, Chief Executive 
of the Mille Lacs Band of Ojibwe. Ms. Benjamin has served her 
people as chief executive proudly for 3 years. During that 
time, she has been an effective voice for supporting her 
community, not only in Minnesota but around the country as 
well.
    Ms. Benjamin stands up for tribal sovereignty and self-
determination. She speaks about the need to maintain 
government-to-government relations between the United States 
and all tribes. In her testimony, you will hear how tribal 
self-governance has improved the lives of the Mille Lacs Band 
and other Native Americans.
    Mr. Chairman, the Mille Lacs Band of Ojibwe for a long time 
has called the southern shore of Minnesota's Lake Mille Lacs 
its home. During that time, they have endured incredible 
hardships, but they have also many successes. It is because of 
leaders like Melanie Benjamin that the Mille Lacs Band has a 
very bright future.
    Recent economic developments on their reservation have led 
to greater self-sufficiency, not only for the tribe but for the 
surrounding towns and townships in the area. They are 
strengthening their culture by teaching their Ojibwe language 
to their children. They make sure that their children have a 
good education. I was very proud to be at the ceremony for 
opening up the school when they built a wonderful school for 
their children to attend on the reservation.
    Tribal leaders all over the country are working hard, but I 
am very proud of the tribal leaders in Minnesota who continue 
to work with the State to provide for a cleaner environment. 
Chief Executive Benjamin will be the first to tell you there is 
much more work to be done, but under her leadership, I am 
confident that we will find a way for us to get the work done 
in a good, affirmative, government-to-government relationship.
    Mr. Chair, I truly am honored to welcome Ms. Benjamin here 
today.
    The Chairman. Ms. Benjamin.

STATEMENT OF MELANIE BENJAMIN, CHIEF EXECUTIVE, MILLE LACS BAND 
        OF OJIBWE; ACCOMPANIED BY TADD JOHNSON, COUNSEL

    Ms. Benjamin. Good morning, Mr. Chairman, and members of 
the Committee. My name is Melanie Benjamin and I am the Chief 
Executive of the Mille Lacs Band of Ojibwe.
    As one of the first tribes to enter into a self-governance 
compact, it is an honor to be here today to talk about tribal 
self-governance. Under the leadership of my mentor, Arthur 
Gahbow, the Mille Lacs Band was one of the first tribes to 
envision what self-governance could mean. From day one, we have 
been involved in the self-governance policy.
    We first began contracting for Federal programs in the 
1970s under the Self-Determination Act. Self-determination was 
an exciting new era in Indian affairs, but as more tribes 
contracted for programs, the BIA just grew larger and larger. 
The contracting rules were constraining. Regulations were 
inflexible, with little room for creativity with our programs. 
I recall someone quoting a study, finding that only about 10 
cents of every dollar appropriated ever made it to the 
reservations.
    Around 1987, a small group of tribes, including Mille Lacs, 
began talking about a demonstration project, allowing tribes to 
prioritize and reallocate their BIA money. Of course, there 
were concerns. There is a story of a congressional staffer 
asking a tribal leader a question like this: ``If you are 
allowed to spend Federal funds based on your own tribal 
priorities, what would stop you from buying a fleet of Cadillac 
cars?'' The tribal leader replied, ``I wouldn't do that, for 
two reasons. First, I would be skinned alive by my own people. 
Second, if I survived, I wouldn't be reelected.''
    This is what self-governance is about. It isn't just 
creating new authority for tribes; it's about accountability. 
Self-governance ushered in a new era when tribes were finally 
treated as grown ups among this Nation's family of governments. 
More than 15 years later, I'm not aware of a single Cadillac 
purchase with self-governance funds.
    What began in 1988 as a movement by just a few tribes now 
involves more than 200. Through our Annual Funding Agreements 
with the BIA and the IHS, we receive our fundings and determine 
their allocation. In addition, we have been able to contemplate 
new initiatives that may have been impossible without self-
governance. We have developed an infrastructure to support our 
expanding economy, including a housing initiative, new roads, 
new sewer lines and so forth.
    These initiatives directly meet Band members' needs. Self-
governance has meant real change for the Mille Lacs Band. 
First, we now can redesign programs as we see fit. If we have a 
better way to provide chemical dependence treatment by using a 
``sweat lodge'', we can do it.
    Second, we can also reprogram funds if our needs change. 
For example, if we have a very dry season, as we recently did, 
we can reallocate funding toward fire protection.
    Third, we participate in rulemaking. Title IV was the first 
Indian law that required negotiating rulemaking.
    Fourth, we are using our funds more efficiently. We 
determine our own local needs and then we dictate how we use 
funding, not a Federal official in Minneapolis or Washington, 
D.C.
    Finally, our compacts reflect a true government-to-
government relationship. The Mille Lacs Band first compacted 
for 30 BIA programs in 1990. Thirteen years later, our self-
governance budget has only grown by less than 3 percent per 
year, or less than 35 percent for the entire 13 years. In 
contrast, the BIA budget has more than doubled in the same 13 
years.
    When we entered into self-governance, we believed our self-
governance budget would grow at the same rate as the BIA. This 
has not been the case. Congress needs to allow self-governance 
to grow proportionately with the BIA to continue to work and to 
be successful.
    In 1987, a few bold tribal leaders wanted a Federal Indian 
Policy that was similar to treaty making. They started with BIA 
and IHS compacts. Today, my colleagues and I look into the 21st 
century Federal Indian Policy and ask, will we stay on track? 
What is left to accomplish in the evolution of self-governance 
policy?
    The Mille Lacs Band of Ojibwe has always wanted to have all 
of our Federal dollars--not just those from Interior and HHS--
but all of our dollars rolled into one Annual Funding Agreement 
with the United States. This includes funds from all other 
Federal Departments--Labor, Justice, Education, and all funds 
that currently flow through State programs. It would be our 
honor to be included in the demonstration project that moves 
this policy to the next level.
    I appreciate your time and refer you to my written 
statement in which we address our concerns about trust 
responsibility. I also have Tadd Johnson with me, formerly of 
this Committee. We would be pleased to take any questions you 
might have.
    ``Mii Gwetch''. Thank you.
    [The prepared statement of Ms. Benjamin follows:]

            Statement of Melanie Benjamin, Chief Executive, 
                       Mille Lacs Band of Ojibwe

    Good morning Mr. Chairman and Members of the Committee. My name is 
Melanie Benjamin and I am Chief Executive of the Mille Lacs Band of 
Ojibwe. We are a Federally recognized tribe of 3,593 members located in 
East Central Minnesota. As one of the first six tribes to enter into a 
Self-Governance compact with the United States government, it is an 
honor to be here today to talk about Tribal Self-Governance. Today, I 
will address the history and benefits of Self-Governance, and some of 
our policy concerns with the direction of current Federal Indian policy 
in relation to Self-Governance and the Federal trust responsibility.

The History of Self-Governance
    Under the leadership of my mentor and predecessor, Arthur Gahbow, 
the Mille Lacs Band was one of the first tribes to envision the concept 
of Self-Governance: the ability of tribes to plan, implement and 
administer programs that best meet the needs of a tribal membership. 
Self-Governance was Art Gahbow's dream and, as a result of his hard 
work, the Mille Lacs Band was one of the pioneer tribes. From day one 
we have been involved in Self-Governance policy. Today, I am a delegate 
on the Tribal Self-Governance Advisory Committee that provides policy 
recommendations to the Director of Indian Health Services.
    In the 1970s, tribes were allowed to contract for Federal programs 
and services that would benefit their memberships under Public Law 93-
638, the Indian Self-Determination Act. By the 1980s, however, a 
growing Federal bureaucracy was not adequately addressing the 
uniqueness of the different tribes and made it difficult for us to 
administer our programs. As someone who used to administer Self-
Determination contracts, I can tell you that the rules and regulations 
were very constraining. We had to report to low-level bureaucrats in 
order to run simple programs.
    The inflexibility of the Indian Self-Determination Act left little 
room for creativity and experimentation. More troublesome was the fact 
that Self-Determination was not cost-effective for tribes who already 
had scarce resources to administer programs. I recall someone quoting a 
study that only about ten cents of every dollar appropriated ever 
actually made it to the reservations.
    In 1987, tribal leaders formed the Alliance of American Indian 
Leaders. It was the 200th anniversary of the United States Constitution 
and tribal leaders such as Roger Jourdain of the Red Lake Band of 
Chippewa, Wendell Chino from Mescalero Apache, Joe De La Cruz of the 
Quinault Nation, and our own Arthur Gahbow came together in 
Philadelphia, Pennsylvania, to seek a change in Federal Indian policy. 
Within a year, the Alliance drafted a new title to the Indian Self-
Determination Act, the Title III Self-Governance Demonstration Project.
    In its consideration of the Demonstration Project, there is a story 
of a Congressional staffer asking a tribal leader a question something 
like this: ``If you are allowed to spend Federal funds on your own 
tribal priorities, what would stop you from buying a fleet of Cadillac 
cars?'' The tribal leader replied, ``I wouldn't do that for two 
reasons. First, I would be skinned alive by my own people. Second, if I 
survived, I would not be reelected. This is what Self-Governance is 
about. It is not just creating new authority for tribes, but also 
letting them be accountable for the consequences of their mistakes. 
More than fifteen years later, I am not aware of a single Cadillac 
purchased with Federal funds.
    In 1988, Title III of Self-Governance became law. Around 1990, the 
Mille Lacs Band and five other tribes formed the Six Tribe Consortium 
and entered into the first Self-Governance Compacts under the 
Demonstration Project. In 1994, Self-Governance became a permanent 
program in the Bureau of Indian Affairs and in 2000 became permanent 
law in the Indian Health Service and the Department of Health and Human 
Services. What started as a movement by a very small number of tribes 
more than a decade ago now sees more than 200 Self-Governance tribes. 
There are 35 Federally recognized tribes in our region, 9 of which are 
Self-Governance.

The Benefits of Self-Governance
    The Mille Lacs Band of Ojibwe Self-Governance Compact is with the 
Department of Interior and we receive Self-Governance funds through our 
Annual Funding Agreements with the Bureau of Indian Affairs and the 
Indian Health Service. Once received, we make the determination of how 
our Self-Governance funds will be allocated. This is the essence of 
Self-Governance: the empowerment of tribes to make allocations based 
upon tribally identified priorities that reflect membership needs. For 
the Mille Lacs Band, those priorities have typically been health, 
education, housing, and natural resources. More recently, economic 
development has also been identified because it is a means to provide 
more opportunities for Band members and their families.
    Based upon these priorities, Self-Governance has allowed us to 
contemplate new initiatives that may not have been possible without 
Self-Governance status. The Mille Lacs Band has been able to develop an 
infrastructure that supports our expanding economy. For example, we 
have a new Housing Initiative to provide new homes for our Band 
members, new sewer lines for those homes, and new roads that allow the 
safe transportation of our children to their schools. We are also 
developing and expanding our environmental programs to include water 
quality testing and other monitoring measures that will better manage 
and protect our natural resources.
    What Self-Governance means for the Mille Lacs Band specific to 
program operations are five-fold. First, we can now redesign programs 
as we see fit. If we have a better way to provide chemical dependency 
treatment by using a sweat lodge, we can do it. Second, we can also 
reprogram funds as we see fit based on changing needs. For example, if 
we have an exceptionally dry season as we recently had, we can allocate 
more funds to fire protection. Third, the Mille Lacs Band can 
participate in rulemaking. Title IV was the first Indian law that 
required negotiated rulemaking and for the first time brought Federal 
and tribal officials together to develop the rules. Fourth, we are 
using our funds more efficiently. Our local needs determined by us 
dictate the use of our funds, not a Federal official located in 
Minneapolis or Washington, D.C. Finally, our compacts with the Federal 
Government reflect a true government-to-government relationship that 
indicates we are not viewed as just another Federal contractor.
    For example, years ago the Mille Lacs Band needed business and 
governmental expansion to accommodate our economic growth. We signed 
Memorandums of Agreement with a number of Federal and state agencies 
for this development to occur. The Mille Lacs Band became the lead 
agency and started a business that now employs 1200 people, and 
established new schools, clinics, a government center and elderly 
assisting living units. These developments would not have happened 
without the authorization provided under Self-Governance.
    Self-Governance has also played a role in promoting new 
partnerships between the Mille Lacs Band and other entities. We are a 
rural community located on the southern shores of Lake Mille Lacs, one 
of the largest lakes in the State of Minnesota. We have recently joined 
forces with local municipalities to build a state-of-the-art wastewater 
treatment plant utilizing the latest technology that benefits both Band 
members and our surrounding neighbors. Many of our Band members engage 
in traditional fishing and wild ricing activities and for their health 
we want to ensure the integrity and water quality of Lake Mille Lacs. 
The new treatment plant will help ensure the continued protection of 
our greatest natural resource. Though the plant does not utilize Self-
Governance funds, we believe it is an example of what our Self-
Governance status can lead to.
    The direct and derivative benefits of Self-Governance cannot be 
emphasized enough. But for Self-Governance, we might not have the 
relative success that we enjoy. There was a time not long ago when the 
Mille Lacs Band struggled with great poverty and was unable to meet the 
basic needs of our membership. We have come a long way since then and 
strongly believe Self-Governance played a significant role in our 
progress.
    This is not to say that Self-Governance is the panacea to a tribe's 
problems, but rather Self-Governance is a means for tribes to realize 
their potential. Self-Governance is the tool that allows tribes like 
the Mille Lacs Band to build capacity that ultimately benefits a tribal 
membership. While Self-Governance has done much to benefit tribes more 
than any other Federal Indian policy, I want to bring to your attention 
some concerns the Mille Lacs Band has with current Federal policy 
towards the tribes.

A Disproportionate Self-Governance Budget
    The Mille Lacs Band first compacted for 30 programs from the Bureau 
of Indian Affairs in 1990 with funds that amounted to approximately 
$603,698.00. Programs varied from natural resources to substance abuse. 
Thirteen years later, our Self-Governance budget is approximately 
$817,426.00 for the same 30 programs. This growth is less than 3% per 
year, or less than 35% for the entire thirteen years. In effect, we are 
doing more with less funds because our Self-Governance budget does not 
reflect the increasing costs of administering those 30 programs. 
Consequently, there may be a day when administrative costs of a program 
will far outweigh the function and program activity. In contrast, the 
Bureau of Indian Affairs budget has more than doubled in the same 13 
years.
    When we entered into Self-Governance, we believed that our Self-
Governance budget would grow at the same percentage rate as the Bureau 
of Indian Affairs. This has not been the case. Though Congress had 
appropriated funds to establish Tribal Self-Governance, it has not 
allowed Self-Governance to grow proportionately with the BIA or United 
States as a whole since its inception. Despite this fact, many tribes 
continue to seek Self-Governance status each year, which is a clear 
indication of the success of Self-Governance.
    For Self-Governance to continue to work and be successful, changes 
must be made and implemented for tribes to remain in Self-Governance. 
Otherwise, Self-Governance may fail and tribes will be reabsorbed into 
the Bureau of Indian Affairs. The Mille Lacs Band is willing to offer 
assistance and participate in the redress of this budget problem.

Self-Governance and the Federal Trust Responsibility
    The Mille Lacs Band of Ojibwe and all Federally-recognized tribes 
have a unique relationship with the United States. Our treaties with 
the United States established a government-to-government relationship 
that exists to this day. The United States' Federal trust 
responsibility arises out of the treaties, Federal statutes, Executive 
Orders, and Supreme Court decisions. From this Federal trust 
responsibility flows a trust obligation of the United States to the 
tribes.
    It is the Mille Lacs Band's position that the Federal trust 
responsibility is very broad in scope and not limited to fine 
distinctions in legal definitions. However, the Department of 
Interior's BIA reorganization and the Department of Health and Human 
Services ``One'' Department Initiative indicate that the Federal trust 
responsibility is being re-defined in a manner that tribes strongly 
disagree with. This development in new Federal Indian policy is heading 
in the wrong direction and will be detrimental to many tribes.
    In Public Law 106-260, the Tribal Self-Governance Amendments of 
2000, the following language addressing tribal sovereignty, the 
government-to-government relationship, and the Federal trust 
responsibility reads in relevant part:
    The Congress finds that--
    (1) The tribal right of self-government flows from the inherent 
sovereignty of Indian tribes and nations;
    (2) The United States recognizes a special government-to-
government relationship with Indian tribes, including the right of the 
Indian tribes to self-governance, as reflected in the Constitution, 
treaties, Federal statutes, and the course of dealings of the United 
States with Indian tribes;
    ...
    (5) Although progress has been made, the Federal bureaucracy, with 
its centralized rules and regulations, has eroded tribal self-
governance and dominated tribal affairs;
    ...
    (6) Congress ... finds that transferring full control and funding 
to tribal governments, upon tribal request, over decision making for 
Federal programs, services, functions, and activities (or portions 
thereof)--
          (A) is an appropriate and effective means of implementing 
        the Federal policy of government-to-government relations with 
        the Indian tribes; and
          (B) strengthens the Federal policy of Indian self-
        determination, and
    It is the policy of the Congress--
    ...
          (A) To enable the United States to maintain and improve its 
        unique and continuing relationship with, and responsibility to, 
        Indian tribes;
          (B) To permit each Indian tribe to choose the extent of its 
        participation in self-governance in accordance with the 
        provisions of the Indian Self-Determination and Education 
        Assistance Act relating to the provision of Federal services to 
        Indian tribes;
          (C) To ensure the continuation of the trust responsibility 
        of the United States to Indian tribes and Indian individuals;
          (D) To affirm and enable the United States to fulfill its 
        obligations to the Indian tribes under treaties and other laws;
          (E) To strengthen the government-to-government relationship 
        between the United States and Indian tribes through direct and 
        meaningful consultation with all tribes;
          (F) To permit an orderly transition from Federal domination 
        of programs and services to provide Indian tribes with 
        meaningful authority, control, funding, and discretion to plan, 
        conduct, redesign, and administer programs, services, 
        functions, and activities (or portions thereof) that meet the 
        needs of individual tribal communities; [and]
          (G) To provide for a measurable parallel reduction in the 
        Federal bureaucracy as programs, services, functions, and 
        activities (or portions thereof) are assumed by Indian tribes 
        ``.
    25 U.S.C. Sec. 458aaa.
    The Trust Responsibility provision of the Self-Governance Act 
specifically addresses the duty of the Secretary: ``The Secretary is 
prohibited from waiving, modifying, or diminishing in any way the trust 
responsibility of the United States with respect to Indian tribes and 
individual Indians that exists under treaties, Executive orders, other 
laws, or court decisions.'' 25 U.S.C. Sec. 458aaa-6.
    The above statutory language illustrates that Congress clearly 
intended to continue its Federal trust responsibility to the tribes and 
maintain the government-to-government relationship between the United 
States and tribes by expressly stating such. Despite the Mille Lacs 
Band and other Self-Governance tribes assuming more authority and 
control over compacted programs, Self-Governance law and policy never 
intended to diminish or waive the Federal trust responsibility but 
rather preserve it.
    That was our understanding of Self-Governance as it relates to the 
Federal trust responsibility at the time we entered into our compacts, 
and this is our understanding today. This very understanding by the 
Mille Lacs Band leadership in 1990 was the primary reason we assumed 
Self-Governance, because we believed that all of our trust resources 
and assets would always be protected. In the event the Mille Lacs Band 
would be unable to adequately protect a trust resource or asset, the 
law provides trust resource and asset protection for us.
    Under the Self-Governance Reassumption provision, the law provides 
that, if our trust resources face imminent jeopardy or endangerment, 
meaning immediate threat and the likelihood of significant devaluation, 
degradation, damage or loss of a trust asset, the Secretary may 
reassume program operations upon a finding of imminent jeopardy. 25 
U.S.C. Sec. 450m and Sec. 458aaa-6; 25 C.F.R. pt. 1000 at 78727 (2000). 
Operation of this provision ensures that our trust resources are always 
protected under the Federal trust responsibility.
    Today, the ongoing Bureau of Indian Affairs reorganization and the 
establishment of the Office of the Special Trustee appear to be re-
defining the Federal trust responsibility through administrative 
action. Tribes, including the Mille Lacs Band, have been opposed to the 
BIA reorganization since before its implementation, yet the 
reorganization continues despite our objections in the name of ``trust 
reform.''
    One of the many aspects of the reorganization is the removal of all 
trust functions from the BIA to the Office of the Special Trustee. More 
troublesome is that the Special Trustee's office is moving in the 
direction of limiting its trust responsibility to more limited duties. 
If such a concept becomes actual policy, we will have resources that 
may not meet the proposed limited standards, thereby leaving these 
resources unprotected and vulnerable to non-Federal interests. 
Therefore, the Mille Lacs Band seriously questions what measure of 
trust responsibility we can expect from the Office of the Special 
Trustee in regard to our trust resources and assets under our Self-
Governance compacts.
    Another ``reorganization'' the Mille Lacs Band is concerned with is 
the ongoing One Department Initiative of the Department of Health and 
Human Services that seeks to streamline the delivery of services. We 
interpret this to mean a reduction in staff and resources, although in 
the 1990s the Indian Health Service had already downsized significantly 
in order to increase the delivery of direct medical services to tribes. 
Part of that downsizing was the transfer of resources and operations to 
tribal management, which many other agencies had not undertaken to do. 
Consequently, there has been a 60% reduction in administrative staff in 
the Central Office Headquarters and the Area Offices in the past six 
years.
    It must also be pointed out that as a direct result of more tribes 
entering into Self-Governance each year, more IHS administrative 
reductions will occur. To have more downsizing occur now is 
unreasonable and will impact the IHS's ability to help tribes address 
the significant health disparities that exist in our communities. 
Indian Health Service has a unique place within the DHHS and is a 
direct extension of the Federal trust responsibility that addresses 
Indian health care. We fear that the Indian Health Service will become 
lost in the HHS One Department Initiative, which has direct bearing on 
the trust responsibility to tribes and the provision of critical health 
care delivery.
    Specific to HHS, a recommendation to address tribes' concern is to 
elevate the position of the Indian Health Service Director to that of 
Assistant Secretary of Indian Health. Such an elevation would assure 
tribes that Indian health issues would be addressed and improve the 
coordination efforts between the various health and human services 
agencies that serve tribes and their communities.
    Generally, the Mille Lacs Band maintains the position that the 
Federal trust responsibility is very broad in scope and should not be 
limited in any manner. If the trust responsibility is limited to 
certain duties, the Mille Lacs Band further maintains that such a 
proposed policy overlooks our treaties with the United States and is in 
direct contravention of existing policy that defines the trust 
responsibility and relationship between the United States and tribes.

The Promise of Self-Governance
    If the existence of Self-Governance as we know it today ceases to 
be, there would be the elimination of many crucial programs that 
function to improve our Band members' lives. The worst-case scenario is 
a return to the terrible poverty conditions we once knew not very long 
ago. It would mean being the poorest of the poor, the lowest in 
educational achievement, and poorest in health conditions. We cannot go 
back to such a harsh life.
    It is a sad fact that my grandparents and many other Band member 
families suffered tremendously for a lack of resources prior to Self-
Governance. It has only been under Self-Governance that the Mille Lacs 
Band has been able to rise above extreme poverty and improve lives on 
the reservation. The elimination of manipulative systems and reduction 
of Federal bureaucracy has allowed us to prosper and provide for our 
members.
    Our relative success under Self-Governance is a good thing, but it 
does not mean our fundamental relationship with the United States 
should change. The government-to-government relationship should remain 
in place and should continue to recognize our sovereignty and right to 
self-determination. Altering current policy poses the risk of 
relegating us back to a ward status, much like a child, that knew no 
success by any measure.
    Today, we are able to chart our own destiny as determined by our 
Band membership, not a Federal official or agency. The Mille Lacs Band 
can create a promising path for our children to follow who in time will 
also chart the Band's destiny. Self-Governance permits us the means to 
create a better world for many generations to come.

Conclusion
    The vision of those tribal leaders in 1987 was bold. They wanted 
tribes and the United States to have a relationship that was more like 
the original one, back in the treaty-making era. The tribal leaders 
wanted a real government-to-government relationship with the United 
States, seeking the closest thing to a treaty they could find and 
settled on a ``compact.'' Fifteen years later, those Self-Governance 
compacts have become a hallmark of progress for tribes and tribes are 
living that vision. Tribal leaders today look ahead to 21st Century 
Federal Indian policy and ask, will we stay on track? What is left to 
accomplish in the evolution of Self-Governance policy?
    The Mille Lacs Band of Ojibwe has always wanted to have all of our 
Federal dollars, not just those from Interior and HHS, but all of our 
dollars rolled into one annual funding agreement with the United 
States. This includes funds from all other Federal Departments: Labor, 
Justice, Education, and all funds that currently flow through state 
programs.
    I am told that the jurisdiction of the House committees make such a 
bill difficult to pass. Also, dealing with all affected agencies and 
the state would be an enormous challenge. But if any member of the 
House has the courage to take on this task, the Mille Lacs Band would 
like to work with you. It would be our honor to be included in a 
demonstration project that moves this policy to the next level.
    I appreciate your time and would be pleased to take any questions 
you might have.
    Mii Gwetch.
                                 ______
                                 
    The Chairman. Thank you.
    Next we have from my home State Clifford Lyle Marshall, 
Chairman of the Hoopa Valley Tribe.

        STATEMENT OF CLIFFORD LYLE MARSHALL, CHAIRMAN, 
                       HOOPA VALLEY TRIBE

    Mr. Marshall. Thank you for this opportunity to testify 
today about the Self-Governance Program. I am Clifford Lyle 
Marshall, Chairman of the Hoopa Valley tribe of California, the 
largest land-based tribe in California.
    My invitation to testify referred to self-governance as an 
experiment. Originally, self-governance was referred to as a 
project; later amendments to the Self-Governance Act designated 
it as a program. Regardless, whether it's an experiment or a 
program, it is the most successful piece of legislation in 
advancing tribal government, developing tribal infrastructure 
and advancing tribal self-sufficiency.
    I thank the Committee for having this hearing because for 
the past two-and-a-half years most of what has been talked 
about in regard to Indian affairs is the Cobell case and the 
Department of Interior's trust reform proposal. The impression 
is that everything in Indian Country is bad, broken, 
mismanaged, has gone haywire, or run amok. I hope to express to 
you today that in many places in Indian Country, on many 
reservations, as the tribal leaders today will testify, very 
positive things are happening. I sense that many Members of 
Congress are not familiar with the Self-Governance Program, so 
I thank you again for giving us the opportunity to reintroduce 
the positives achieved through the Self-Governance Program.
    In 1988, Congress passed the Self-Governance Act, an 
amendment to the Indian Self-Determination Act of 1975. It did 
so because tribes and tribal leaders were complaining 
vehemently about the shortcoming of 93-638 contracting. In 
spite of the intent of the Self-Determination Act, which 
allowed tribes for the first time to manage programs on their 
respective reservations, the BIA remained in complete control 
of programs by dictating contract terms and through heavy-
handed oversight that took 80 to 90 percent of the Federal 
funding off the top of Indian program funding. More 
importantly, the programs designed by the BIA were not meeting 
the needs of the Indian communities. Tribes sought flexibility 
to adjust budgets and redesign programs.
    In 1988, 10 tribes with a history of managing 93-638 
contracts received a 2-year grant to design their own programs, 
draft their own compacts, and self-governance was born.
    Today, almost 50 percent of the tribes compact under the 
Self-Governance Program. The Hoopa Tribe was one of the first 
tier of tribes and was the first to have its compact signed in 
1990. Before 1988, however, the tribe had contracted most BIA 
programs under 93-638. Through self-governance, the Hoopa Tribe 
has assumed management authority over all Federal programs on 
its reservation.
    Currently, the tribe manages 53 programs. Hoopa was the 
first to compact health care with the Indian Health Service in 
California, and now has a hospital, a dental clinic, and the 
only ambulance service and emergency room within 70 miles of 
the reservation.
    One of the first priorities under self-governance was to 
establish the first tribal court in California and assert 
jurisdiction over Indian child welfare cases. The tribe then 
established its own law enforcement department for resource 
protection and to enforce fish regulations. Hoopa's law 
enforcement program is now the only one in the State that is 
cross deputized by the county, which gives them the authority 
to enforce State criminal law on the reservation. This 
relationship has been in existence for the past 8 years. The 
tribe has just passed its own civil traffic code.
    We have compacted resource management and manage our forest 
lands under a 10-year forest management plan approved by the 
BIA that exceeds environmental standards required by Federal 
law. This plan has allowed our timber to be ``smart wood'' 
certified, a certification that allows lumber products produced 
from our timber to be exportable to Europe.
    The tribe also owns and operates its own logging company, 
creating seasonal employment and additional revenue from annual 
timber harvests. We also have our own nursery to grow trees for 
replanting. Forestry management includes forestry protection, 
and the Hoopa Tribe has created its own wildland fire 
protection program. All tribal firefighters meet the same 
qualification requirements of the United States Forest Service.
    When Hoopa assumed forestry management, we also took over 
the BIA roads department. Though the reservation contains over 
100 miles of roads, the tribe receives $113,000 a year for 
roads maintenance, not enough to maintain five miles of road. 
To maintain and upgrade our forest roads neglected for decades 
by the BIA, a percentage of our annual timber sales goes toward 
road maintenance. Two years ago, the tribe invested in an 
aggregate plant that now helps subsidize the roads program by 
paying the salaries of roads department employees with revenues 
generated from the sale of sand, gravel, road base and cement.
    Hoopa has its own Tribal Environmental Protection Agency, 
TEPA, that ensures that our resource management programs 
perform in compliance with Federal EPA regulations. TEPA is 
also responsible for enforcement of the tribe's solid waste 
ordinance. The tribe has compacted realty from the BIA regional 
office. Through tribal ordinances, the tribe assigns land to 
tribal members for housing, agriculture, and grazing.
    The tribe created a public utilities district that has 
spent the past 10 years laying a reservation-wide water system. 
We are now in the process of developing a reservation-wide 
irrigation system, using river water as the source, and are in 
the beginning stages of designing a reservation-wide sewer 
system that is projected to be needed in the next 10 years.
    The tribe has its own fisheries department that monitors 
in-stream habitat and salmon populations in the Trinity River 
basin. This is a well-respected program that also contracts 
with the Bureau of Reclamation and the United States Fish and 
Wildlife Service for collection of fisheries enhancement data.
    We also have a housing authority, a human services 
department that provides alcohol and drug abuse counseling, as 
well as family crisis counseling, and an education department 
that encompasses preschool to a junior college branch campus. 
We plan to break ground on a new early childhood development 
facility in this next fiscal year.
    By allowing us the flexibility to design our own programs, 
we have created this system for ourselves in just the last 14 
years. We have done this with planning and sound fiscal 
management. As we look forward to our future, our focus is on 
the development of our lands for future housing needs and the 
development of tribally owned economic enterprises that will 
create an independent economic base and job opportunities for 
our people. We have completed two feasibility studies, one for 
a specialized sawmill that will produce specialty cutting for 
export markets and create 50 jobs locally. The other is a 
modular home plant that will not only create as many as 150 
jobs, but also provide affordable housing to our tribal members 
and others in our surrounding communities.
    We are not sure today what the DOI's trust reform proposal 
is. Hoopa is concerned that the DOI, the Department of 
Interior, is planning to take us all the way back to a system 
that existed before self-governance. They are proposing to 
design the program for us, they're going to set the standards, 
the processes and procedures, and they are going to fund their 
program by taking money off the top of tribal program funding.
    We are concerned that the flexibility of self-governance 
which has allowed tribes to create their own successes will be 
eliminated, that the processes that tribes have developed 
through relationships with their respective regional and agency 
offices over the past 10 to 15 years will be replaced with 
something that will not work.
    DOI and OST are saying that they have to do this because of 
the Cobell case. This is clearly not correct by our reading of 
the case. The last Cobell order clearly defines the trust as 
individual IIM accounts and limits its order to that. The order 
also requires the Department of Interior to manage the trust in 
compliance with tribal law and ordinances. Who has such 
ordinances? The answer is self-governance tribes.
    Let me say why I believe that the liability issue that has 
been raised is overstated in regard to self-governance tribes. 
First, the BIA and DOI have never been sued by a self-
governance tribe for mismanagement of a compacted program. Such 
an admission of tribal mismanagement would immediately destroy 
their compact. Second, under self-governance, the BIA can take 
back any compacted program simply by declaring the program in 
``imminent jeopardy.'' Finally, audits and trust evaluations 
are conducted annually, allowing a complete disclosure of 
tribal management of compacted programs. The BIA is sued by 
direct service tribes for their mismanagement. I have heard 
more than a few leaders of direct service tribes--no offense 
intended--say they would never compact because they would lose 
the ability to sue for mismanagement.
    Self-governance tribes are the ones that have a clear track 
record for management. The DOI really has no track record of 
developing successful programs for tribes. Self-governance 
tribes have been the true trust reformers. We have used the 
flexibility of self-governance to address our people's needs, 
our own issues, concerns and problems. We have created 
successful programs that have become models for other tribes. 
We have taken over underfunded programs and created success 
with innovation and hard work. We have been able to match every 
dollar that we received from the BIA compact with three dollars 
from other sources and with our own tribal funds. By assuming 
trust management, many of us are doing a cleanup of decades of 
BIA mismanagement.
    Let me conclude by saying that self-governance is the most 
successful program in the history of Federal Indian policy 
because tribes have made it a success. Seven tribes in 
California, along with three other tribes, have asked Congress 
to create a new pilot project that will preserve the working 
relationships and agreements that they have created with their 
respective regional offices since 1990. This proposal is in the 
Senate Interior Appropriations bill, section 134. I ask that 
you support section 134 and preserve the most successful models 
of tribal self-governance in Indian Country today.
    Solutions, problem solving and success for Indian Country 
won't be created within the beltway. Solutions come from tribal 
communities that understand their own needs. The Self-
Governance Program has allowed tribes to make decisions, find 
their own solutions, and create their own successes. I ask that 
you take into consideration what has been accomplished under 
the Self-Governance Program as you consider DOI's proposals for 
trust reform.
    Thank you for your time.
    [The prepared statement of Mr. Marshall follows:]

   Statement of Clifford Lyle Marshall, Chairman, Hoopa Valley Tribe

    Mr. Chairman, Members of the Committee:
    Thank you for this opportunity to testify today about the Self-
Governance program. I am Clifford Lyle Marshall, Chairman of the Hoopa 
Valley Tribe. My invitation to testify referred to Self-Governance as 
an experiment. Originally, Self-Governance was referred to as a 
project; later amendments to the Self-Governance Act designated it a 
program. Regardless, whether it's an experiment or a program, it is the 
most successful piece of legislation in advancing tribal government, 
developing tribal infrastructure, and advancing tribal self-
sufficiency.
    I thank the Committee for having this hearing because, for the past 
two-and a-half years most of what has been talked about in regard to 
Indian affairs is the Cobell case and the Department of the Interior's 
Trust Reform proposal to address the Court's order in that case. The 
impression is that everything in Indian Country is bad, broken, 
mismanaged, has gone haywire, or run amok. I hope to express to you 
today that in many places in Indian Country, on many reservations as 
the tribal leaders today will testify, that very positive things are 
happening. I sense that many members of Congress are not familiar with 
the Self-Governance program. So I thank you for giving us this 
opportunity to re-introduce the positives achieved through the Self-
Governance Program.
    In 1988 Congress passed the Self-Governance Act, an amendment to 
the Indian Self-Determination Act of 1975. It did so because tribes and 
tribal leaders were complaining vehemently about the shortcomings of 
93-638 contracting. In spite of the intent of the Self-Determination 
Act, which allowed tribes for the first time to manage programs on 
their respective reservations, the BIA remained in complete control of 
programs by dictating contract terms and through heavy-handed oversight 
that took 80 to 90 % of the Federal funding off the top of Indian 
program funding. More importantly the programs designed by the BIA were 
not meeting the needs of the Indian communities. Tribes sought 
flexibility to adjust budgets and redesign programs.
    In 1988, 10 tribes with a history of managing 93-638 contracts 
received a two-year grant to design their own programs, draft their own 
compacts and self-governance was born. Today, almost fifty percent 
(50%) of the tribes compact under the Self-Governance Program. The 
Hoopa Tribe was one of the first tier of tribes and was the first to 
have its compact signed in 1990. Before 1988, however, the Hoopa Tribe 
had contracted most BIA programs under 93-638. Through Self-Governance, 
the Hoopa Tribe has assumed management authority over all Federal 
programs. Currently the Tribe manages fifty-three (53) programs. Hoopa 
was the first to compact health care with Indian Health Service in 
California and now has a hospital, a dental clinic and the only 
ambulance service and emergency room within 70 miles of the 
reservation.
    One of the first priorities under Self-Governance was to establish 
the first tribal court in California and assert jurisdiction over 
Indian Child Welfare cases. The tribe then established its own law 
enforcement department for resource protection and to enforce fishing 
regulations. Hoopas Law enforcement program is now the only one in the 
State that is cross deputized by the County which gives them the 
authority to enforce state criminal law on the reservation. This 
relationship has been in existence for the past eight years. The tribe 
has just passed its own civil traffic code.
    We have compacted resource management and manage our forest lands 
under a ten-year forest management plan approved by the BIA that 
exceeds environmental standards required by Federal law. This plan has 
allowed our timber to be ``Smart Wood'' certified, a certification that 
allows lumber products produced from our timber to be exportable to 
Europe. The Tribe also owns and operates its own logging company 
creating seasonal employment and additional revenue from annual timber 
harvests. We also have our own nursery to grow trees for replanting. 
Forestry management includes forestry protection, and Hoopa created its 
own Wildland Fire Protection Program. All tribal fire fighters meet the 
same qualification requirements of the United States Forest Service.
    When Hoopa assumed forestry management, it also took over the BIA 
roads department. Though the reservation contains over one hundred 
miles of roads the Tribe receives $113,000 a year for roads 
maintenance, not enough to maintain five miles of road. To maintain and 
upgrade our forest roads neglected for decades by the BIA a percentage 
of annual timber sales goes towards roads maintenance. Two years ago 
the Tribe invested in an aggregate plant that now helps subsidize the 
Roads program by paying the salaries of roads department employees with 
revenues generated from the sale of sand, gravel, road base, and 
cement.
    Hoopa has its own Tribal Environmental Protection Agency (TEPA) 
that ensures that our resource management programs perform in 
compliance with Federal EPA regulations. TEPA is also responsible for 
enforcement of the Tribes solid waste ordinance. The Tribe has 
compacted realty from the BIA Regional office. Through tribal 
ordinances the Tribal assigns land to tribal members for housing, 
agriculture, and grazing.
    The Tribe created a public utilities district that has spent the 
last ten years laying a reservation-wide water system. We are now in 
the process of developing a reservation-wide irrigation system using 
river water as the source, and are in the beginning stages of designing 
a reservation-wide sewer system that is projected to be needed in the 
next ten years. The Tribe has its own fisheries department that 
monitors in-stream habitat and salmon populations in the Trinity River 
basin. This is a well-respected program that also contracts with the 
Bureau of Reclamation and United States Fish and Wildlife Service for 
collection of fisheries enhancement data.
    We also have a housing authority; a human services department that 
provides alcohol and drug abuse counseling as well as family crisis 
counseling; and an education department that encompasses pre-school to 
a junior college branch campus. We plan to break ground on a new early 
childhood development facility in this next fiscal year.
    By allowing us the flexibility to design our own programs, we have 
created this system for ourselves in just the last fourteen years. 
We've done this with planning and sound fiscal management. As we look 
forward to our future, our focus is on the development of our lands for 
future housing needs and the development of tribally-owned economic 
enterprises that will create an independent economic base and job 
opportunities for our people. We have completed two feasibility 
studies, one for a specialized sawmill that will produce specialty 
cutting for export markets and create 50 jobs locally. The other is a 
modular home plant that will not only create as many as 150 jobs and 
also provide affordable housing to our tribal members and others in our 
surrounding communities.
    We are not sure what the DOI's trust reform proposal is. Hoopa is 
concerned that DOI is planning to take us all the way back to the 
system that existed before Self-Governance: they're proposing to design 
the program for us; they're going to set the standards, the processes 
and procedures, and they're going to fund their program by taking money 
off the top of tribal program funding. We are concerned that the 
flexibility of Self-Governance which has allowed tribes to create their 
own successes will be eliminated, that the processes that tribes have 
developed through relationships with their respective regional or 
agency offices over the past 10-15 years will be replaced with 
something that will not work.
    DOI and OST are saying that they have to do this because of the 
Cobell case. This is clearly not correct by our reading of the case. 
The last Cobell order clearly defines the Trust as individual IIM 
accounts and limits its order to that. The order also requires the DOI 
to manage the Trust in compliance with tribal law and ordinances. Who 
has such ordinances? The answer is Self-Governance tribes.
    Let me say why I believe that the liability issue is overstated in 
regard to Self-Governance tribes. First, the BIA or DOI have never been 
sued by a Self-Governance Tribe for mismanagement of a compacted 
program. Such an admission of tribal mismanagement would immediately 
destroy their compact. Second, under Self-Governance the BIA can take 
back any compacted program simply by declaring the program in 
``imminent jeopardy.'' Finally, audits and trust evaluations are 
conducted annually allowing a complete disclosure of tribal management 
of compacted programs. The BIA is sued by Direct Service tribes for 
their mismanagement. I've heard more than a few leaders of Direct 
Service tribes say they would never compact because they would lose the 
ability to sue for mismanagement.
    Self-Governance tribes are the ones that have a clear track record 
for management. The DOI really has no track record of developing 
successful programs for tribes. Self-Governance tribes have been the 
true trust reformers. We have used the flexibility of Self-Governance 
to address our people's needs, our own issues, concerns and problems. 
We have created successful programs that have become models for other 
tribes. We've taken over underfunded programs and created success with 
innovation and hard work. We have been able to match every dollar that 
we receive from the BIA compact with three dollars from other sources 
and with our own tribal funds. By assuming trust management, many of us 
are doing a cleanup of decades of BIA mismanagement.
    Let me conclude by saying that Self-Governance is the most 
successful program in the history of Federal Indian policy because 
tribes have made it a success. Seven tribes in California, along with 
three other tribes, have asked Congress to create a new pilot project 
that will preserve the working relationships and agreements that they 
have created with their respective regional offices since 1990. This 
proposal is in the Senate Interior Appropriations bill, Section 134. I 
ask that you support Section 134 and preserve the most successful 
models of tribal self-governance in Indian Country today.
    Solutions, problem solving and success for Indian Country won't be 
created within the Beltway. Solutions must come from tribal communities 
that understand their own needs. The Self-Governance program has 
allowed tribes to make decisions, find their own solutions, and create 
their own successes. I ask that you take into consideration what has 
been accomplished under the Self-Governance program as you consider 
DOI's proposals for trust reform. Thank you for your time.
                                 ______
                                 
    The Chairman. I recognize Mr. Hayworth.
    Mr. Hayworth. Mr. Chairman, I thank you very much.
    My colleagues, I certainly echo very much what Chairman 
Marshall told us. The subject of this hearing today, tribal 
self-governance, is by and large a success story. Though 
redistricting has taken many of the sovereign tribes out of 
what used to be my district, my colleague, Mr. Renzi, now in 
the newly constituted 1st District, represents many of my 
former constituents.
    I am very pleased that remaining within the bounds of the 
new 5th Congressional District of Arizona is the Salt River 
Pima-Maricopa Indian Community. Here to tell us the story of 
economic diversity, the successes, the challenges confronted by 
the Salt River Pima community is my friend, the Special 
Assistant for Congressional and Legislative Affairs, Jacob 
Moore.
    Jacob, welcome.
    The Chairman. Mr. Moore.

STATEMENT OF JACOB MOORE, SPECIAL ASSISTANT, CONGRESSIONAL AND 
 LEGISLATIVE AFFAIRS, SALT RIVER PIMA-MARICOPA INDIAN COMMUNITY

    Mr. Moore. Thank you. Thank you for the kind introduction. 
Good morning.
    Chairman Pombo, Ranking Member Rahall, members of the 
Committee and distinguished guests, on behalf of President Joni 
Ramos and Vice President Leonard Rivers of the Salt River Pima-
Maricopa Indian Community, we thank you for the opportunity to 
testify today.
    My name is Jacob Moore, special assistant on congressional 
and legislative affairs. I am here to share with the Committee 
the concept of self-governance, some of the successes resulting 
therefrom, and to emphasize the importance of section 134 of S. 
1391, the Senate Interior Appropriations bill, which was just 
mentioned by Chairman Marshall from the Hoopa Valley Tribe.
    The community, currently comprised of over 8,300 members, 
predates Arizona as a State. Yet, in the last 50 years, urban 
growth has come to our boundaries, forcing the community to 
explore ways to protect our history, our culture, and our way 
of life. Today, we are surrounded by metropolitan Phoenix and 
are bordered by the cities of Tempe, Scottsdale, Mesa and 
Fountain Hills.
    The Salt River Pima-Maricopa Indian Community is a 
contemporary but still traditional community that is concerned 
about our physical, social, economic and spiritual well-being. 
We are fortunate that our community recognizes the importance 
of planning for a world that the next seven generations of our 
people will inherit. The advantage of long-term planning 
enables us to make better decisions.
    Our road to self-governance began at the same time 
President Richard Nixon launched self-determination in 1970. 
That action, as you know, led to the Indian Self-Determination 
and Educational Assistance Act of 1975. We entered into our 
first contract in 1970 to assume control of our Police 
Department and have not looked back since. This initiative set 
us on track for self-determination and self-governance. Since 
that initial contract, we have grown to be an active and strong 
self-governing tribe, and enjoy a reputation as such among our 
peers.
    In the 1980s, we were the first tribe in the Nation to 
develop a major retail development on our land--and it wasn't a 
casino. To accomplish this, we brought together more than 300 
landowners and a developer and created the Pavilions Shopping 
Center adjacent to Scottsdale. We could not have done this 
without the opportunities available under the Indian Self-
Determination and Educational Assistance Act.
    Subsequently, as a part of self-governance, we have taken 
over management of our own resources. We have established a 
realty data base and a compatible geographic information 
system. As a result, we can track ownership of every 
fractionated piece of land owned by heirs of original allottees 
and tribally owned lands. We can show landowners exactly where 
their land is with the use of digitized aerial maps and provide 
a current inventory of their land interests on the same day of 
the request. Equally significant, we can issue lease payment 
checks to members in a timely and accurate manner.
    Under the spirit and intent of self-governance, we have 
expanded our economic development opportunities. The Salt River 
Pima-Maricopa Indian Community operates 11 successful 
enterprises that include such diverse industries as 
construction materials, telecommunications, entertainment, 
tourism, alternative energy, waste management and commercial 
property development. The revenues realized from these 
enterprises allow us to supplement the limited resources 
received from the Federal Government toward fulfilling its 
trust obligations. Even with the additional tribal funds, there 
is still an unmet need in the delivery of basic services and 
infrastructure in Indian Country, including the Salt River 
Pima-Maricopa Indian Community.
    Today, we have more than three decades of experience with 
self-determination and self-governance. From the original ten 
demonstration projects in 1987, the program has grown to over 
260 tribes that are participating in self-governance in one 
form or another.
    Self-governance has proven to be a viable means to allow 
tribes to obtain more autonomy in decisionmaking and management 
of their resources. Self-governance allows tribes to develop 
and grow in a way that is consistent with their traditional 
values and cultural integrity. The self-governance program 
allows tribes the flexibility to utilize and maximize limited 
Federal resources in the most efficient and cost-effective way. 
While accomplishing all of this, self-governance tribes have 
met and oftentimes exceed the level of trust accountability 
practiced by the U.S. Department of Interior. This is evidenced 
in successful annual audit reports, the EDS report, and the 
Department of Interior's As Is report.
    In the context of the current trust reform effort and the 
U.S. Department of Interior's reorganization plan, we need to 
ensure that the embodiment of self-governance is not 
diminished. Since the trust reform plan has focused primarily 
on issues involving direct service tribes and self-
determination contract tribes, as distinguished from self-
governance tribes, self-governance tribes must be able to 
continue to operate within the principle that has guided their 
success.
    The demonstration project proposed under section 134 of S. 
1391, the Senate Interior Appropriations bill, will allow the 
current self-governance tribes to continue to operate under a 
system that has proven successful while allowing trust reform 
to continue. The Salt River Pima-Maricopa Indian Community has 
always, and will continue to maintain, trust standards that 
meet or exceed those of the Federal Government. Much like the 
empowerment realized under self-governance, our trust standards 
reflect our commitment to the well-being and continued 
existence of our community through a balanced relationship with 
the Federal Government that works.
    Thank you for the opportunity to speak today, and thank you 
for your continued support.
    [The prepared statement of Mr. Moore follows:]

   Statement of Jacob Moore, Special Assistant on Congressional and 
   Legislative Affairs, The Salt River Pima-Maricopa Indian Community

    Chairman Pombo, Ranking Member Rahall, Members of the Committee and 
distinguished guests, on behalf of President Joni M. Ramos and Vice 
President Leonard Rivers of the Salt River Pima-Maricopa Indian 
Community (Community), we thank you for the opportunity to testify 
today. My name is Jacob Moore, Special Assistant on Congressional & 
Legislative Affairs. I am here to share with the Committee the concept 
of self-governance, some of the successes resulting therefrom and to 
emphasize the importance of Section 134 of S. 1391, the Senate Interior 
Appropriations bill.
    Our Community, currently comprised of over 8,300 members, predates 
Arizona as a State. Yet, in the last 50 years, urban growth has come to 
our boundaries, forcing the Community to explore ways to protect our 
history, culture and way of life. Today, we are surrounded by 
metropolitan Phoenix and are bordered by the cities of Tempe, 
Scottsdale, Mesa and Fountain Hills.
    The Salt River Pima-Maricopa Indian Community is a contemporary, 
but still traditional, community that is concerned about our physical, 
social, economic and spiritual well-being. We are fortunate that our 
Community recognizes the importance of planning for a world that the 
next seven generations of our people will inherit. The advantage of 
long-term planning enables us to make better decisions.
    Our road to self-governance began at the same time President 
Richard Nixon launched self-determination in 1970. That action, as you 
know, led to the Indian Self-Determination & Educational Assistance Act 
of 1975. We entered into our first contract in 1970 for our Police 
Department. This initiative set us on track for self-determination and 
self-governance. Since that initial contract, we have grown to be an 
active and strong self-governing tribe and enjoy a reputation, as such, 
among our peers.
    In the 1980s, we were the first tribe to develop a major retail 
development on our land. To accomplish this, we brought together more 
than 300 landowners and a developer and created the Pavilions Shopping 
Center. We could not have done this without the opportunities available 
under the Indian Self-Determination and Educational Assistance Act.
    Subsequently, as a part of self-governance, we have taken over 
management of our own resources. We have established a realty database 
and a compatible geographic information system. As a result, we can 
track ownership for every fractionated piece of land owned by heirs of 
original allottees and tribally owned lands. We can show landowners 
exactly where their land is and provide a current inventory of their 
land interests on the same day of the request. Equally significant, we 
issue lease payment checks to our members in a timely and accurate 
manner.
    Under the spirit and intent of self-governance, we have expanded 
our economic development opportunities. The Salt River Indian Pima-
Maricopa Indian Community operates 11 successful enterprises that 
include such diverse industries as construction materials, 
telecommunications, entertainment, tourism, waste management and 
commercial property development. The revenues realized from these 
enterprises allow us to supplement the limited resources received from 
the Federal Government toward fulfilling its trust obligations. Even 
with additional tribal funds, there is still an unmet need in the 
delivery of basic services and infrastructure in Indian Country 
including the Salt River Pima-Maricopa Indian Community.
    Today, we have more than three decades of experience with self-
governance. From the original 10 demonstration projects in 1987, the 
program has grown to over 260 tribes that are participating in self-
governance in one form or another.
    Self-governance has proven to be a viable means to allow tribes to 
obtain more autonomy in decision making and management of their 
resources. Self-governance allows tribes to develop and grow in a way 
that is consistent with traditional values and cultural integrity. The 
self-governance program allows tribes the flexibility to utilize and 
maximize limited Federal resources in the most efficient and cost-
effective way. While accomplishing all of this, self-governance tribes 
have met, and oftentimes exceeded, the level of trust accountability 
practiced by the U.S. Department of the Interior. This is evidenced in 
successful annual audit reports, the EDS report, and the DOI's As Is 
Report.
    In the context of the current trust reform effort and the U.S. 
Department of the Interior's reorganization plan, we need to ensure 
that the embodiment of self-governance is not diminished. Since the 
trust reform plan has focused primarily on issues involving direct 
service tribes and self-determination contract tribes, as distinguished 
from self-governance tribes, self-governance tribes must be able to 
continue to operate within the parameter that has guided their success.
    The demonstration project proposed under Section 134 will allow 
current self-governance tribes to continue to operate under a system 
that has proven successful while allowing trust reform to continue. The 
Salt River Pima-Maricopa Indian Community has always, and will continue 
to maintain, trust standards that meet or exceed those of the Federal 
Government. Much like the empowerment realized under self-governance, 
our trust standards reflect our commitment to the well-being and 
continued existence of our Community.
    Thank you for the opportunity to speak today.
                                 ______
                                 
    The Chairman. Thank you. I want to thank the entire panel 
for your testimony. To begin with, I would like to ask just 
kind of a general question of the entire panel.
    When we look at what the next step is, where do we go from 
here, what kind of changes would you like to see put into 
effect that would help give you a better opportunity to manage 
and for self-governance? We can start with Mr. Matt.
    Mr. Matt. As I alluded to in part of my verbal testimony, 
we are looking right now at the opportunity of developing an 
AFA for the National Bison Range, which is right in the heart 
of our reservation, so that's outside of the normal umbrella, I 
guess, of what we're used to dealing with at BIA and those 
programs. We got that developed to the point where it works 
well and we do a good job, but this is kind of outside of that. 
So we're looking at other programs and that happens to be one 
of them.
    The Chairman. So what you would like is to have the 
opportunity to broaden or expand the areas that you can compact 
with and begin to take over?
    Mr. Matt. Yes, sir, that's exactly right.
    The Chairman. Ms. Benjamin?
    Ms. Benjamin. I will have to also say that I think the 
opportunity to have compacting with the other Federal agencies 
as well would be a benefit to the Mille Lacs Band. In addition, 
my testimony talked about when there are those costs that 
increase for the BIA, they also increase for the tribal sides 
as well. Those two.
    The Chairman. Let me just follow up on that. You said in 
your testimony that the BIA budget had doubled during a 13-year 
time span, I believe you said. How did your funding change 
during that same 13-year span?
    Ms. Benjamin. We are about 3 percent each year that there's 
been an increase overall. For the 13 years, it's been 35 
percent total. So we're smaller. Our increases are smaller than 
the Bureau of Indian Affairs, cost increases, things of that 
sort.
    The Chairman. Mr. Marshall?
    Mr. Marshall. There was a provision in the Self-Governance 
Act Amendment that provided the tribes would be able to compact 
with Interior programs. Up to this point, it has been limited 
to the BIA. So we do enter into compacts, but it is not based 
on treaty right because there's a fiduciary obligation of the 
tribe to protect those rights.
    Fred is very concerned about the buffalo range, and we're 
very concerned about maintaining fisheries habitat on the river 
that runs through our reservation.
    The Chairman. One of the major issues that you have dealt 
with is water and water rights. You said that you're working 
with the Bureau now on some stuff----
    Mr. Marshall. Reclamation, yes.
    The Chairman [continuing]. That you would like to see that 
expand.
    Mr. Marshall. Well, the contracts that we have with the 
Bureau of Reclamation, we didn't get them through compacting. 
We got them basically by banging on their door until they 
listened to us, proving ourselves as being competent managers. 
But as we assert our rights at times, there tends to be some 
conflict of interest and then we run into a discussion of 
whether or not we should be allowed to contract or not.
    Our argument is that our fishing right is a treaty 
obligation, as Mr. Kildee said. It is between two nations, and 
there is an obligation to protect that fishery. As such, we 
feel we should be entitled to contract for the management of 
that resource, or to protect that treaty right.
    The Chairman. Mr. Moore?
    Mr. Moore. I would echo some of the statements that were 
made earlier. Contract support cost is certainly an issue. The 
lack of increases in contract support costs is a disincentive 
for tribes to become involved in self-governance. Not all 
tribes are as fortunate as, say, Salt River or other tribes 
that have additional opportunities for development.
    There are tribes that struggle. The idea of taking over 
programs when, in fact, they know in the long run they're going 
to have to do more with less, is not an incentive to look at 
self-governance. So having additional contract support is 
useful.
    As mentioned earlier, it is again the idea of being able to 
compact not just the programs that are within the Bureau of 
Indian Affairs or Indian Health Service, but the other agencies 
that also have some component of tribal affairs involved.
    The Chairman. Thank you.
    Mr. Kildee.
    Mr. Kildee. Thank you very much, Mr. Chairman. To all of 
you, I say thank you. And to Chief Executive Benjamin, I would 
say ``Mii Gwetch''. But I speak Ojibwe with a Michigan accent.
    [Laughter.]
    Mr. Kildee. Let me ask you this question. Do you believe 
that the trust responsibility should be maintained as tribes 
assume control over more Federal programs? I ask that in this 
context. It would seem that one of the essential areas that 
might want to be retained in the trust responsibility is to 
protect sovereign tribes from State government. John Marshal's 
decision really was based upon that, because the Carolinas and 
Georgia were infringing upon the rights.
    What should the relationship be between the trust 
responsibility and your self-governance? Should there still be 
a role for trust responsibility?
    Mr. Matt. Anna, do you want to help me out with that?
    This is a staff person that I brought with me and failed to 
introduce. She has worked intimately with our programs. Maybe 
you would have a better short answer than I would.
    The Chairman. Please identify yourself for the record.
    Ms. Sorrell. My name is Anna Whiting Sorrell. I work for 
the Confederated Salish and Kootenai Tribes.
    Our tribes absolutely believe that the trust responsibility 
needs to be maintained. In this world today, our relationship 
is a government-to-government relationship. We have been 
willing to take on these responsibilities as a tribe with less 
resource, knowing we're going to have to do more and more. So 
it's very important for us that we keep that responsibility in 
place.
    Maybe as time moves on we may consider a different 
demonstration at a different time, but at this point we would 
fully support that maintaining of the trust responsibility.
    Mr. Kildee. Ms. Benjamin.
    Ms. Benjamin. There is an inherent Federal trust 
responsibility. I think we have to maintain that, and even 
though we want to expand our self-governance responsibilities, 
we still feel that inherent Federal responsibility is still 
there.
    I would also like to introduce Tadd Johnson, who I 
mentioned was formerly of this Committee, to also comment on 
this question.
    Mr. Johnson. Mr. Chairman, Mr. Kildee, when the Self-
governance Act was originally conceived of back in 1987-88, the 
Department of Interior at the time sent a concept up to the 
Hill that essentially said the tribes would take over the 
program but there wouldn't be a trust responsibility included 
in the package. For the tribes at that time, it was a non-
starter. I think that's the position for most tribes today.
    So the trust responsibility is based on treaties and 
statutes and Executive orders in the course of dealings with 
the United States, and it is firmly embodied in the legal 
history of the tribes and needs to stay in place. Any expansion 
that is made of self-governance also needs to include the trust 
responsibility
    Thank you.
    Mr. Kildee. Mr. Marshall.
    Mr. Marshall. Trust responsibility was created by Justice 
Marshall in the trilogy, Marshall's trilogy, which included 
Wooster versus Georgia, when he defined tribes as sovereign 
dependent nations, and defined the United States relationship 
with tribes. Through the course of history, it is the trust 
responsibility that has kind of shaped our history.
    The Department of Interior, in presenting trust reform, has 
said to us there is a conflict between trust responsibility and 
sovereignty. Certainly there is as tension, but self-governance 
I think is closest to resolving that tension.
    When we talk about the government-to-government 
relationship on the one hand, which is a recognition of tribes 
as nation, and the trust responsibility relationship, which is 
defined more as a trustee-beneficiary relationship, the 
conflict that is perceived with self-governance is as managers 
we are managing the trust. That was the debate that happened 
when self-governance was created--can the beneficiary be 
trusted to manage the trust. Under this idea that tribes are 
nations, I think the United States chose to accept a risk with 
this experiment.
    Tribes have a very brief history of self-governance. If you 
look at the Indian Self-Determination Act, we have been 
managing our own affairs for barely 25 years. Before the 
Education Assistance Act, very few Indians went to college. 
Today, my programs on my reservation are managed. My forestry 
program, I have a tribal member who is a licensed forester. My 
fisheries program, I have a tribal member who is a fisheries 
biologist. My health care program, I have a tribal member who 
is a doctor. It goes like that.
    Will there be a time when tribes can stand as independent 
sovereign nations in this country, or at some level where they 
can function independently entirely of the United States? I 
don't know, because we weren't left with a whole lot to work 
with.
    But trust responsibility is about trust duties, trust 
obligations, of the United States keeping its word that it gave 
to Indians when it treatied with them or when it entered into 
agreements with them. I think when we talk about trust 
responsibility, we're talking about the United States keeping 
its word and meeting the obligations and the promises it made 
to Indians throughout the course of this Nation's history.
    Mr. Kildee. Mr. Moore, if you could respond.
    Mr. Moore. It is always hard to follow Chairman Marshall, 
who articulates it so well. But he is absolutely correct. I 
think history will confirm that an agreement was made on a 
government-to-government basis, that made certain promises in 
exchange for vast tracts of ancestral lands, that stated that 
health, education and welfare would be provided to Native 
peoples.
    There wasn't a time set on that. Again, whether it's our 
parents or our grandparents or our great-great grandparents, 
those were commitments that they understood were made, not only 
for my future but for the future of our children.
    Since that time, there have been misguided policies and 
bureaucracies within various departments that deal with Indian 
affairs that have clouded that issue. So that becomes an issue 
of whether or not it can be provided by the Federal Government 
or whether the tribes, through self-governance, can manage 
those programs. But beyond that, the commitment still remains 
the same, and that's what we hold to.
    Mr. Kildee. I think I agree with all of you, that I really 
believe the trust responsibility should never be a patronizing 
trust responsibility but it should retain its protective 
nature. Very often we need that, even today. It wasn't just 
back in the time of Andrew Jackson or John Marshall, although 
that's where we really find a basis for this in Supreme Court 
decisions. But it is right now in Florida, with the Seminoles. 
It's in California with people talking about Indian sovereign 
nations as if they're social clubs, not sovereign nations, 
during that last campaign. They aren't social clubs. You're 
sovereign nations. If there is to be retained a trust 
responsibility, it should be to protect your sovereignty, not 
to be a patronizing role.
    I really appreciate your responses. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Any further questions? Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chair.
    I'm going to direct this to Chief Executive Melanie 
Benjamin. If others want to comment after her, I would be very 
interested in hearing your thoughts.
    One of the comments that you made and you elaborated more 
on in your testimony, Ms. Benjamin, dealt with the 
reorganization that you would like to see really take the 
tribes as a partner in moving forward, and that's dealing with 
health.
    You mentioned the ability for tribal elders working to find 
ways into combining traditional medicine as well as the 
advances that have been made with modern medicine in addressing 
alcoholism with the use of ``sweat lodges.'' But we also know 
that not only in Minnesota, where it has been identified, but 
throughout the country, diabetes has really made many of our 
elders' lives not as productive as they could be. I know we 
have even identified diabetes, unfortunately, very early in 
many children, Native American children in particular.
    One of the things in your testimony that, yes, there will 
be some downsizing as more self-governance takes place, but the 
downsizing has to be done in consultation with the tribes to 
make sure the support staff is there in the Federal health 
department to do research and guidance and to work with the 
tribes in partnership in addressing these health issues, which 
were not addressed for years and have now been brought up to be 
discussed, but still continue to be a major failure on the part 
of the Federal Government working to address issues such as 
diabetes.
    I would like to have you elaborate more on why your self-
governance is the best way in which to bring medicine that will 
be effective not only to our elders but for future generations.
    Ms. Benjamin. First off, I would like to thank you for 
those kind words during my introduction. I was very 
appreciative of that.
    For traditional healers on the Mille Lacs reservation, we 
are a very traditional people where, along with, of course, a 
lot of other tribes across the country, we practice a lot of 
our traditional ceremonies and things of that sort. One of the 
important components when we look at health is the traditional 
healer. We have established a relationship on the reservation 
with the traditional healers and western medicine practitioners 
as well. They work hand in hand.
    The majority of our elders will go to the traditional 
healer first and get that guidance and the treatment they need. 
Then they will also go to the regular doctors for that 
treatment.
    I had an interesting story with our doctor, who was dealing 
with an elder. She couldn't find what the problem was with the 
elder, so she conferred with our traditional healer and talked 
about the symptoms the patient had and things of that sort. The 
traditional healer said, ``Well, did you look in this area?'' 
for whatever that was. So she went back and actually used that 
suggestion and they were able to find out what the ailment was. 
We believe strongly in that and that really works for us.
    Under self-governance, we are able to redesign and 
reallocate those funds, because we want to make sure the people 
of the Mille Lacs Band get the best services we can provide for 
them. This is one of the ways.
    Also, in terms of diabetes, we also have a real strong and 
aggressive program that we're looking to educate for preventive 
medicine, exercise because, as you stated, the youth are now 
being diagnosed with diabetes and we're very concerned about 
that. So that is one example.
    I think a lot of times people don't realize that's how 
self-governance has an impact as well in some of those cultural 
ways of how we govern and how we live.
    The Chairman. Any further questions? Mr. Pallone.
    Mr. Pallone. Thank you, Mr. Chairman. I apologize. I missed 
a lot of the testimony because we had another hearing in 
another committee that I'm on. I wanted to just ask two 
questions, if I could.
    It seems to me there's sort of a theoretical and practical 
side to this issue of expanding self-governance and compacts 
and how that impacts the trust reform responsibility. You can 
kind of look at it philosophically or you can look at it 
practically. Generally speaking, I think that most tribes feel 
they would like to see more self-governance, more compacts, but 
at the same time they don't believe that that should end the 
Federal trust responsibility. But practically speaking, it 
seems like it does.
    In other words, if I could ask a question of Chief 
Executive Benjamin, it seems to me if we take your idea, which 
I read in your statement, about all dollars being rolled into 
one Annual Funding Agreement with the United States, that 
practically speaking, even if there remained a trust 
obligation, there wouldn't be much practically left of that.
    I guess my question is, let's say you adopted your proposal 
and you had this Annual Funding Agreement. What trust 
responsibility would be left? I mean, would there be some kind 
of oversight responsibility, where maybe, if you're not doing 
the right thing, we could take it back? What would be left of 
the trust responsibility?
    Ms. Benjamin. I think we talked about that earlier, and 
also about the kind of legal requirements of that relationship 
between the sovereign nations and the Federal Government. It 
talks about there are legal requirements that we have to adhere 
to, and those are still in place with the treaty signings, the 
Executive orders, contract agreements and those sorts of 
things. I guess that kind of leaves us with those guidelines 
that we have to fall within. Again, it is because of that 
government-to-government relationship, what the Federal 
Government agreed to when dealing with Indian nations.
    Mr. Pallone. So it would essentially be a sort of oversight 
responsibility, that if the tribe wasn't doing something 
properly pursuant to the guidelines, we could take that 
responsibility back; it would be in that nature?
    I mean, I'm not trying to put words in your mouth.
    Ms. Benjamin. Yes.
    I think the question, too, has legal implications to that, 
so I would ask Tadd Johnson to respond as well.
    Mr. Johnson. Thank you, Mr. Chairman, Mr. Pallone.
    We came upon some of those issues when we were negotiating 
the rules on Title IV. We asked the Interior Department 
Solicitor to provide a legal opinion on what were the 
inherently Federal functions that the United States and 
Department of Interior had to perform.
    It's an analysis that can be done. There are certain 
functions, obviously, that only the United States can perform. 
Then there are things that the tribes can perform.
    Those can be separated out if you take a long, hard look at 
them.
    One of the practical problems with the suggestion is 
probably just getting it through the House of Representatives. 
If you try to roll all the programs into one compact, it 
probably gets referred to six different committees or 
something, so a demonstration project would probably take a 
long time to get through on that idea.
    But we just wanted to keep that idea alive. It was 
something that got discussed many, many years ago, and that was 
the long-term vision of self-governance. Whether it will get 
there or not, we're not sure, but we're going to keep plugging 
at it.
    Mr. Pallone. Again, I wanted to ask this question of 
Chairman Matt. If I understood it--and again, I'm looking at 
the written testimony--there was concern that the BIA's trust 
reform changes might limit opportunities for compacts or for 
tribal self-governance. I think your testimony says it may move 
programs into categories of non-BIA programs and the 
regulations are harder to give tribes opportunities to 
administer in those programs.
    I know it's a little technical, but can you give me an 
example? In other words, what are they doing with these trust 
reforms that would limit self-governance opportunities? I know 
it's kind of technical, and I don't really understand it. Maybe 
you do, or somebody else.
    Mr. Matt. I will try to address that a little bit, but I 
would like to have Anna expand on it.
    As I sit here listening to the questions, there is one 
simple answer I would like to convey to this Committee. The 
beauty of self-governance is that it gives us the flexibility 
to design programs that meet the needs of the individual 
tribes. You have five tribes sitting at this table that we 
represent, but across Indian Country, there is 500 tribes. They 
are all uniquely different. We all are at different stages in 
our lives that would allow us to either compact or contract, or 
if we choose or not to choose. But it helps us design programs 
that have unique elements in it such as this lady just talked 
about earlier.
    That's really the beauty of it. It helps us design programs 
that meet the needs, and we take it on in stages as we go, as 
we grow up, so to speak in this idea.
    With that, I will let Anna directly answer your question 
and how that impacts us.
    Ms. Sorrell. In our testimony that Chairman Matt provided, 
we clearly were able to describe a system that we put in place. 
What we tried to do was take the funds that come from a variety 
of sources, one of those mainly from the Bureau of Indian 
Affairs.
    As to your particular question, we have had the experience 
already. Right now the regulations that Mr. Johnson refers to, 
there is a set of regulations that were negotiated with the 
tribes and the Department of Interior. Some of those 
regulations apply to BIA programs, and others apply to non-BIA 
programs. It is a technical distinction, but it is extremely 
important to tribes.
    What the Bureau of Indian Affairs and the Office of the 
Special Trustee are doing, they are beginning to separate out 
programs, and as those programs are separated, they fall under 
different categories. When we began our negotiations to operate 
the IIM accounts in the Office of the Special Trustee, we had 
to negotiate a separate agreement, under different guidelines 
that are much more restrictive. They do not allow for the 
redesign; they do not allow for the reallocation to supplement 
the programs into a single delivery system.
    On our reservation, there is one tribal government. That 
tribal government needs to have the opportunity to design the 
single program, not a program that is appropriate in the 
Bureau, and then a different one that's appropriate for the 
Office of the Special Trustee, but a single program.
    Our fear in the reorganization, they have developed 
separate stovepipes that go up with separate functions. As they 
separate out from one program to another, it's going to force 
us to renegotiate under stricter guidelines, different 
guidelines, that really allow the Federal Government to 
centralize those services, not to the tribes but to Washington, 
D.C., or the regional area.
    Mr. Pallone. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Any further questions? Mr. Baca.
    Mr. Baca. Thank you very much, Mr. Chairman, and thank you 
for having this hearing today, especially as we look at the 
continued needs, not only for the self-governance and the trust 
responsibility, but especially as we look at what's happening 
in California right now with the new Governor who talks about 
sovereignty and has the ability to go and tax each of the 
sovereign countries.
    What impact, if at all, will that have on any of the 
sovereign nations right now as we look at additional dollars 
coming up in terms of self-governance? Will that have any 
impact based on some of the decisions that may happen in 
California?
    I believe in California alone, when I look at the 
sovereignty in that area, most of the tribes contribute a lot 
more than even any additional tax. Will that then reduce any 
additional moneys or moneys that are allocated to some of the 
tribes in California or other areas? Can anyone answer that?
    Mr. Marshall. I'm from California, so I'll try.
    When I introduced myself as Chairman of the Hoopa Tribe--
and Hoopa is a nongaming tribe. That doesn't mean it doesn't 
have a casino. It has a small one, with less than 80 machines. 
It either makes or loses $100,000 a year. But it employs 40 
people and keeps 40 families off of welfare. It allows them to 
live normal lives. We have a closed game because we're too 
remote to draw, and we generate income from other places, 
basically timber revenues.
    The State compact provides for gaming revenue sharing, and 
we benefit from that. A lot of things we have done, from 
renovating tribal facilities, fixing leaking roofs on 
facilities that were built back in the 1970s, contributing to 
our preschool facility, building our dental clinic, we have 
used gaming revenue sharing dollars to do that with.
    There are casinos and there are casinos. There are large 
casinos in the San Diego area. They produce a lot of revenue. 
They also create a lot of jobs, and they donate a lot of the 
money to----
    Mr. Baca. On the average, they create about 1,500 jobs or 
more locally in the area; is that correct?
    Mr. Marshall. I believe that Mark Maccaro from Pachonga was 
saying that the casinos in total create over 40,000 jobs in 
California. They are very sensitive to impacts. If there's an 
impact on a highway, they want to fix it. They've got the money 
to do it. I think it really takes away from the history that 
occurred to Indians in California. We are from the largest 
reservation in California, and I wouldn't compare mine to 
Fred's. I mean, Fred has a huge reservation compared to mine. 
But I think mine is just as pretty.
    [Laughter.]
    Mr. Marshall. Most land bases in California are very small. 
They were set aside simply just large enough for a farm or 
large enough for a home, and families grew. So there is no 
other opportunity. They aren't going to build an industrial 
park. There is no land base for it. It can't rely on natural 
resources. So gaming was an answer.
    I know ``Arnold'' is talking about taxation. California is 
a Public Law 280 State, where the Federal Government 
transferred law enforcement to the State back in the 1950s. We 
have a law enforcement program because the law enforcement that 
was being provided by the State, in our opinion, was 
inadequate. Tribes had to make up the difference. They still 
see us as separate and apart from them.
    Mr. Baca. That would be a change if he does tax on the 
compact that was originally signed, and also not keeping its 
word, right?
    Mr. Marshall. We're going to see Arnold get mad. We're 
going to see--Excuse me, it's Governor Schwarzenegger.
    Mr. Baca. Governor-elect.
    [Laughter.]
    Mr. Marshall. Right, Governor-elect Schwarzenegger. He was 
upset with some of the gaming tribes and he said some things. 
Hopefully he will take the time to sit back and reflect on 
that. I think he is not aware of the unique relationship 
between tribes as nations and the United States. I think, now 
that he's there, he will get an education.
    Mr. Baca. I agree with you.
    If I can, Mr. Chairman, I know my time is up, but it's 
shocking that the tribes only receive one-third of the money 
they need for programs such as welfare, courts, land 
management, assistance to the elderly, the health area, such as 
diabetes, education and the infrastructure.
    I know that Honorable Melanie Benjamin in her testimony 
mentioned that the studies showed only 10 percent of every 
dollar appropriated actually makes it to the reservations, 
which means we should actually be funding at a higher level and 
we should not rely on casino moneys to provide a service that 
we ask the government to provide anybody else. We should be 
doing the same thing.
    How can we straighten the principle of financial 
responsibility and government-to-government relationships, 
which is question number one, and how can we get tribes more 
involved in the decisionmaking process as to where the money 
should go? That's open to anyone.
    Mr. Matt. I'll try to take the first cut at that.
    Again, for the very nature of why we're here today, that's 
a way, if there's any funding during our agreement or 
negotiating part of our compacts, if we can get the adequate 
resources, it is our experience that, with what we have, we 
have done a better job. We clearly can go down the line here 
and prove that, with the limited funding that we receive, in 
some cases after we've negotiated compacts, traditionally that 
money starts shrinking. We still do a better job.
    Mr. Baca. If I may just interject here, you're absolutely 
right. Isn't that correct, that when we fund other agencies 
outside of a sovereign nation, that we allow them to run and 
govern their own money? And yet, we're somehow questioning 
you--I mean, it seems like we should apply the same principle.
    Mr. Matt. There again, in part of my written testimony I 
allude to where, if we were to fund our health care system the 
same as we do the prison system in the State of Montana, we 
would have triple the resources that we need.
    Mr. Baca. Right, and allow you to be competitive, as well, 
to keep the individuals that we're educating in each of the 
fields, isn't that correct? I mean, it becomes difficult when 
you're competing with the outside, and yet, in terms of the 
revenue and in terms of hiring people, whether it's in health, 
education, or services, unless you receive the funding and are 
competitive, people are going to leave. And yet the services 
aren't provided. So we should be providing an equal and level 
playing field on both sides, right? I mean, I think that's 
where you were going.
    Mr. Matt. Yes, sir.
    Mr. Marshall. If I may, one of the things that was brought 
up earlier was Wooster. But the Supreme Court has said that 
treaties are to be interpreted as the Indians would have 
understood them. That requires some dialog. What is the 
Indians' understanding of the treaty obligation, or of the 
trust responsibility, those duties and obligations owed to 
tribes by the United States?
    Self-governance, as an experiment, is an experiment in 
dialog. It's an experiment in negotiation. It's an experiment 
where tribes have the right, the opportunity, to sit down at 
the local level with the agency, or with the regional office, 
as we do it, and say this is what we want to do and this is 
why. That dialog then turns into agreements, so that we meet 
the trust duties as we understand them, and the United States, 
through its local representation, provides the funding that's 
available.
    I think we cut the middleman out, the bureaucracy out. In 
self-governance, we don't have the same bureaucracy that 
existed before, where somebody is designing the program, 
somebody is overseeing every step that we take.
    We do trust evaluations. A national program, that says 
trust duties are going to be performed this way, takes away all 
the flexibility. We have designed programs. Part of the 
designing of the program is an agreement, and how those 
programs are going to be evaluated, because our program is 
different than Fred's program. So a ``one size fits all'' 
solution is not going to be there.
    The solution for us, what has worked for us, is the 
flexibility to work with the agencies at the local level, who 
understand us and understand what we mean when we say these are 
our needs, and are willing to give us the opportunity to 
provide the service that, in essence, is meeting their trust 
responsibility to us, not us taking over the obligation to do 
it.
    Mr. Baca. Thank you.
    Thank you, Mr. Chairman. I thank you for taking the 
responsibility. I know you have always been a friend to Native 
Americans as well.
    The Chairman. Any further questions? Mr. Inslee.
    Mr. Inslee. Thank you, Mr. Chairman.
    Chief Executive Benjamin, you referred to the possibility 
at some time of funding from a variety of agencies. Could you 
expand on that and tell me how you think we could make that 
work and why that makes sense?
    Ms. Benjamin. Again, the Mille Lacs Band's position is that 
we know our people the best, and we understand what their needs 
are. We want to be able to have that flexibility under the 
self-governance model, where we would then determine what our 
priorities are for the Band. I think self-governance is a good 
model to start from in those different areas, labor and 
education, those types of things.
    The other issue, too, is the block granting, where a lot of 
the funds go through the State and through the tribe. We would 
also like to have that opportunity to block grant those funds, 
and we wouldn't have to have the State as a middleman for some 
of those issues.
    Some years ago we did do a study on that with Gore, and it 
went just to a certain level and then we were unable to pursue 
it any further from that. But I think from the testimony today, 
it proves that when we have that flexibility to provide those 
services based on our priorities, our people are better off. We 
can render a better service for them.
    Mr. Inslee. Mr. Marshall.
    Mr. Marshall. There are a number of programs within 
Interior that perform trust obligations. The Bureau of Land 
Management performs the trust obligations of surveys, mineral 
management, oil and natural gas management. Tribes have hunting 
and fishing rights on lands adjacent to the reservations 
managed by the U.S. Forest Service. The U.S. Fish and Wildlife 
Service provides the protection of fisheries and is meeting a 
trust obligation to protect tribal fishing rights. So those are 
programs that we want to work with to ensure the treaty 
obligations and the rights that our tribes exercise are 
protected. So expanding it to those programs to actually 
provide the service is what we would be interested in 
contracting.
    Mr. Matt. I would just say that Anna reminded me that we 
always try to do things at the reservation level to serve our 
membership better. We are in this constant sort of 
reorganization mode to do that. We have a Department of Health 
and Human Services, DHRD, where there's a variety of different 
funding sources--labor, the Indian Health Service and 
Interior--that funnel down through this program so that we meet 
the needs of our membership. It works very well, but it is 
different funding agencies that come through that office. So it 
does work good.
    Mr. Inslee. Thank you.
    The Chairman. Any further questions? Mr. Kildee.
    Mr. Kildee. Just one brief question.
    This has been a very good hearing, by the way. I think it 
is a very important hearing.
    As sovereign tribes, as you negotiate with the Federal 
Government on self-governance, you sit there as equals with the 
Federal Government. Because of treaties or Executive Orders, 
you sit there as equals with the Federal Government to 
determine what you want as your responsibility, and what you 
want to hold the Federal Government to as its responsibility. I 
think it's very important that both sides recognize that this 
is true negotiations between sovereigns, so you get what you 
feel you need as your responsibility, and hold the Federal 
Government to what you feel should be their responsibility. I 
think that's very, very important.
    Let me ask you this question: Are there any programs that 
you believe should remain within the administration of the 
Federal Government, or should tribes eventually assume 
management of all Federal programs? Or is that something that 
will unfold with various tribes in different ways?
    Ms. Benjamin. I think it's your statement that we will 
probably evolve into that process as we move ahead and look at 
our successes, and we also can maybe look at areas where we may 
have some adjustments to make. I guess I have to agree with 
your statement, that we will probably evolve into that as we go 
along and as we grow and more tribes are involved in this 
process, if they so desire.
    Mr. Kildee. I think that involvement is extremely 
important, having been here in Washington 27 years, to 
constantly remind people, whether it's the Indian Health 
Service or the BIA, that you are sovereigns dealing with a 
sovereign. You're not going there in any lesser position, so 
they don't come in and exercise greater sovereignty than what 
you have. You have real genuine sovereignty, and as I say, not 
granted to you but retained by you and upheld by our courts, 
something you had long before my European ancestors landed 
here.
    Thank you very much, Mr. Chairman.
    The Chairman. Mr. Pallone.
    Mr. Pallone. You know, we had a hearing last week on the 
Indian Health Care Improvement Act, so the health care issues 
are very much in mind at the Committee right now. I know, 
Chairman Matt, you testified that your tribe receives 
substantially less funding for health program than the Federal 
Government's Medicare program, and even the Federal Prison 
System. You asserted that you were able to provide quality 
care.
    I just wondered how the tribe manages that, in light of 
what we're trying to accomplish in improving Indian health 
care.
    Mr. Matt. I will start again by just saying, with 
creativity, that is one of the things that we have been 
successful with on our reservation, getting into creativity and 
how we manage that. Maybe for more of a technical explanation, 
Anna is truly our right-hand person here and she is involved 
with everything. She could probably give you a better idea.
    Ms. Sorrell. I wanted to say that, although Chairman 
Marshall says that he thinks Hoopa is just as beautiful as 
Flathead, once you've been to Flathead, you will understand 
that you're truly in God's country. As a result of that, we 
have over 10,000 users. Our tribal membership on the 
reservation is about 4,500, but we serve 10,000 eligible 
beneficiaries.
    Our funding has not increased at the same level as our 
beneficiaries or our users. Partly that is a result of our 
highly successful Salish Kootenai College. We have the only 
all-Indian Job Corps center, so that brings people to our 
reservation.
    We have a very unique system in that, when IHS first 
formed, we did not have a direct care facility built. So we are 
the largest tribe in this country without a direct care 
facility. In fact, we purchase all of our care on the open 
market, or the majority of our care on the open market. So we 
have more medical providers within a 100 mile radius, per 
capita, than persons in Boston, which is one of the highest 
levels. So we have had to develop a relationship, a contractual 
relationship, with the providers. There are two hospitals, two 
private care facilities on our reservation. We have had to 
enter into contracts with those.
    But what we have experienced through self-governance is 
that health case isn't a service. It's a business. We need to 
figure out how best to manage that business. Through our self-
governance, we have been able to build a governmental 
infrastructure that has allowed us to deal with those health 
care businesses in a business-like manner. We actually have a 
business plan developed by an actuarial on how to deliver that 
care, how we get our primary care, how we refer people to 
specialists, how we enter into those hospitals. So we have this 
whole plan that's in place.
    Then it is supplemented, as Chairman Benjamin has talked 
about, with those kinds of services in our communities, whether 
that be substance abuse or the delivery of mental health 
services, in a way that really respects and honors our tribal 
traditions.
    One thing that I would like to say is that self-governance 
tribes are certainly at a disadvantage in terms of operating 
the contract health care program. For a number of years, we 
have been seeking assistance from self-governance tribes and 
from Congress and the Indian Health Service, because when you 
assume the management of contract health care, it's a limited 
budget.
    If you get a major accident or you have a major outbreak of 
illness that requires you to go to the hospital, or a number of 
people to go to the hospital, it could bankrupt your health 
care system. One accident in September can cost $500,000. For 
many tribes, that is the entire contract health service budget. 
So tribes that take on that responsibility don't have anywhere 
to get additional funds to support that. If it remains in IHS, 
they have the whole system to draw on, but self-governance 
tribes are limited to their individual pool.
    So we have been asking and looking at ways to really reduce 
or minimize the risks that allow tribes to really take on that 
function, but also have the protection to ensure that tribes 
are not brought into bankruptcy as a result of it.
    Mr. Pallone. Thank you.
    If I could just say, without the other tribes getting mad 
at me, when you're talking about ``God's country'', in August I 
had a chance to drive up through the Mille Lacs, and when I got 
to the tribal headquarters and looked out at that lake, which 
was so beautiful, I really thought I was in God's country.
    Thank you, Mr. Chairman.
    The Chairman. I don't think we ought to get into that.
    [Laughter.]
    The Chairman. I have to give equal time to Mr. Marshall.
    Mr. Kildee had a follow-up question.
    Mr. Kildee. I have been to all three of the tribes, but I 
have yet to go to the Hoopa Valley Tribe. I will have to go up 
to your sovereign nation and visit that. But I have been to the 
other three.
    Let me address this to Tadd. You are familiar with both 
ends of the two sovereignties there. How do you suggest we 
handle the need for increased funding for contract support 
costs?
    Mr. Johnson. Mr. Kildee, Mr. Chairman, members of the 
Committee, I think some good oversight by the Committee would 
be helpful. I think a hearing on contract support would 
certainly be helpful, and a message to the Departments with 
regard to the shortage in that area. Certainly a strong joint 
message from the Chairman and Ranking Member to the Departments 
is usually very helpful in matters like that.
    Mr. Kildee. Thank you very much.
    Thank you, Mr. Chairman. Mr. Chairman, this has been an 
excellent hearing. We ought to appreciate the fact that you 
have called this hearing.
    The Chairman. Thank you.
    I want to thank our witnesses. It has been an educational 
hearing for myself and I think for members of the Committee. As 
we move forward with this, we will continue to rely on you and 
others to provide information to the Committee so that we can 
help the Interior Department with their administration of the 
Federal laws. As a Committee, we will continue our oversight 
responsibility, and if there is a necessity of legislation to 
be passed, it will be this Committee that takes on that chore.
    I want to thank you for your testimony. This is one of 
those issues that I really do believe we need to move forward 
on. I think as the testimony we have had here today 
illustrates, this is an opportunity, in many cases an 
opportunity, but I think in other cases a necessity for the 
tribes to take more self-governance and begin to move forward. 
I think it is something that is extremely important. So I want 
to thank you.
    If there is no further business, the Committee is 
adjourned.
    [Whereupon, at 11:43 a.m., the Committee was adjourned.]


</pre></body></html>
